<html>
<title> - LEADING THE WAY: ADAPTING TO SOUTH FLORIDA'S CHANGING COASTLINE</title>
<body><pre>[Senate Hearing 113-632]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 113-632
 
             LEADING THE WAY: ADAPTING TO SOUTH 
               FLORIDA'S CHANGING COASTLINE

=======================================================================

                             FIELD HEARING

                              BEFORE THE

                   SUBCOMMITTEE ON SCIENCE AND SPACE

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 22, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]





                      U.S. GOVERNMENT PUBLISHING OFFICE
94-339 PDF                 WASHINGTON : 2015                      
                             
______________________________________________________________________________________                       
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a0c7d0cfe0c3d5d3d4c8c5ccd08ec3cfcd8e">[email&#160;protected]</a>  
                      
                             
                             
                             
                             
                             
                             
                             


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

                   SUBCOMMITTEE ON SCIENCE AND SPACE

BILL NELSON, Florida, Chairman       TED CRUZ, Texas, Ranking Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
RICHARD BLUMENTHAL, Connecticut      DAN COATS, Indiana
EDWARD MARKEY, Massachusetts         RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 22, 2014...................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Hon. Joe Garcia, U.S. Representative from Florida................     1
Hon. Frederica Wilson, U.S. Representative from Florida..........     4
Hon. Philip Levine, Mayor, City of Miami Beach, Florida..........     7
    Prepared statement...........................................     9
Dr. Piers Sellers, Deputy Director, Sciences and Exploration 
  Directorate, NASA Goddard Space Flight Center..................    13
    Prepared statement...........................................    16
Kristin Jacobs, County Commissioner, Broward County, Florida; 
  Member, White House Task Force on Climate Preparedness and 
  Resilience.....................................................    23
    Prepared statement...........................................    26
Frederick Bloetscher, Associate Professor, Department of Civil, 
  Environmental, and Geomatics Engineering, Florida Atlantic 
  University.....................................................    50
    Prepared statement...........................................    53
William D. Talbert III, President and Chief Executive Officer, 
  Greater Miami Convention & Visitors Bureau.....................    57
    Prepared statement...........................................    59
Megan Linkin, Natural Hazards Expert, Swiss Re...................    59
    Prepared statement...........................................    63


    LEADING THE WAY: ADAPTING TO SOUTH FLORIDA'S CHANGING COASTLINE

                              ----------                              


                        TUESDAY, APRIL 22, 2014

                               U.S. Senate,
                 Subcommittee on Science and Space,
        Committee on Commerce, Science, and Transportation,
                                                   Miami Beach, FL.
    The Subcommittee met, pursuant to notice, at 10 a.m. at the 
Miami Beach City Hall, Commission Chambers, 1700 Convention 
Center Drive, Miami Beach, Florida, Hon. Bill Nelson, 
presiding.

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. The meeting of the Senate Commerce 
Committee will come to order. And I want to thank all of you 
for coming. We have a capacity crowd here today.
    It is a topic of considerable concern to a great number of 
people, but it is a topic of concern that a lot of people have 
not even considered, and that is climate change and the direct 
effects, on those of us that live on the coast because of sea 
level rise. And so we have titled this hearing today--this 
field hearing of the Senate Commerce, Science, and 
Transportation Committee--we have titled it, ``Leading the Way: 
Adapting to South Florida's Changing Coastline.''
    Now, before I make my opening remarks, I wanted to extend 
the courtesy to the Members of Congress in the South Florida 
delegation who wanted to come by and participate with us today. 
They will not be a part of the formal panel. And so I want 
Congressman Garcia to share a couple of comments with us.
    Congressman?

                 STATEMENT OF HON. JOE GARCIA, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Mr. Garcia. Thank you, Senator.
    First off, I just wanted to thank you for doing this. 
Obviously, I represent probably ground zero, if there is one, 
when it comes to global warming. I represent the Florida Keys 
and South Florida. And there is not a week that goes by that 
this issue doesn't come before us in one way or another.
    Last week alone, we had a hearing where we met with 
agricultural leaders in South Dade, one of the most productive 
areas for agriculture in the country, and they are having water 
intrusion problems that they have never suffered before. We 
met, the week before that, with leaders of the Everglades and 
the Everglades community and discussed the issues they are 
dealing with.
    And, of course, I am also the southernmost Congressman of 
the United States, so I represent the Florida Keys and the 
issues that they already feel.
    So, as part of that, sort of coming off of your leadership 
with this, we are doing a series of events on Earth Week. This 
Thursday at 3:30 at the University of Miami, we will be having 
a similar discussion with business, the effects of sea level 
rise and the impacts it will have in South Florida.
    Even dogs are concerned on this issue.
    [Laughter.]
    Mr. Garcia. So we always appreciate that.
    Just very quickly, I just want to recognize some folks that 
have given tremendous leadership on this. And one in particular 
is our mutual friend, Harvey Ruvin, who has been a leader on 
this for decades, before this was a popular thing.
    [Applause.]
    Mr. Garcia. He was talking about this when I didn't know 
what it meant. And so it is an important thing, and I want to 
recognize that.
    And, finally----
    Senator Nelson. He was talking about this when you were an 
infant.
    [Laughter.]
    Mr. Garcia. Thank you, Senator. Thank you.
    Mr. Ruvin. Now, wait a second----
    [Laughter.]
    Mr. Garcia. I agree with that statement.
    [Laughter.]
    Mr. Garcia. But this is important to all of us, and how it 
affects us.
    And, finally, it is about being pragmatic, Senator. You 
have shown the ability in the Senate to be pragmatic, to find 
common sense solutions to the issues before us. If we posture 
this as an ideological debate, we don't deal with the problem.
    And while this may be a problem, it could be a tremendous 
opportunity for South Florida, for the entire country, because 
on the issues of technology that can affect these things, on 
the issues of finding alternative energy, on so many issues, 
Florida and the United States is a leader. I know you have been 
part of that leadership group.
    And I thank the Mayor for hosting us, as well as the City 
of Miami Beach, where I am a part-time resident.
    Thank you very much, Senator, for doing this.
    Senator Nelson. Thank you, Congressman.
    [Applause.]
    Senator Nelson. Other than the panel that will testify 
today--of course Harvey has already been acknowledged--Mayor 
Cindy Lerner of Pinecrest is here.
    [Applause.]
    Senator Nelson. And we have several members of the City 
Commission of Miami Beach. Would you stand and be recognized?
    [Applause.]
    Senator Nelson. I want to thank all of you for coming 
today. We especially thank the City Commission and the mayor 
for hosting us here.
    And I specifically wanted to come here because this is 
ground zero. High tide, there is flooding. Over the last 50 
years--we will hear testimony--sea level rise has been in 
Florida any place from five to eight inches. It is real. And 
yet some of our colleagues in the Senate deny it. Jim Inhofe, a 
good person, a good Senator for his State of Oklahoma, he 
debunks the idea. But he is one of a very few.
    What happens in the discussion of climate change is the 
fact that the media, wanting to be fair and balanced, present 
it as if it is 50-50. But look at the scientific community and 
the proof that we hope to hear today to enter into the 
Congressional Record.
    Now, this is an official meeting of the U.S. Senate. And 
testimony is being recorded by our recorder, Senate recorder, 
and it will be a part of the official record of the U.S. Senate 
and the Committee on Commerce.
    Now, we particularly--it is just coincidental, this is the 
44th anniversary of Earth Day. And so here in South Florida, 
ground zero, to discuss with Floridians what we are doing to 
protect our coastal ecosystems and economies despite rising sea 
levels.
    So you say, well, why don't we put up dikes like Holland? 
But Holland has a completely different terra firma. We are on 
this massive substrate of limestone and coquina rock, which is 
porous and it is infused by water. And so you could put up a 
dike, but it is not going to do any good, because through the 
substrate, which is like Swiss cheese, the water flows.
    And so we have to come up with innovative, new kinds of 
solutions for what in fact is happening, despite what one-tenth 
of one percent of the folks that talk about this issue of 
climate change say. We ought to be listening to the 99 percent 
of scientific evidence.
    I am also glad to return to my native parts. I was born in 
Miami. As a matter of fact, I was born in the Victoria 
hospital. It is no longer a hospital. At one point, it was a 
psychiatric hospital.
    [Laughter.]
    Senator Nelson. It was, and I guess today is, a mixed-use 
medical facility over near the old Orange Bowl.
    Miami was a totally different community back then. As a 
matter of fact, I will never forget, as a kid, at age six, I 
was in the Orange Bowl parade. Now, that was held on New Year's 
Eve, and that was one of the big social events of Miami. And it 
would start along Biscayne, and it would go down to Flagler and 
then turn west on Flagler. At age six in the Orange Bowl 
parade, you know what I was? I was a Latin dancer.
    [Laughter.]
    Senator Nelson. I was raised on Biscayne Bay the first 
years of my life. And I want to ensure that South Florida 
continues to thrive as this wonderful fabric of mix that has 
become the center, a microcosm of the Western Hemisphere. I 
want to see us continue to thrive economically and as a 
vacation destination, a beautiful place to live and do 
business.
    So we best get about the process of recognizing what is 
happening all around us. Now, we are going to have to face it 
head-on, which is the purpose of the hearing. The Federal 
Government certainly needs to step up and do its part. We need 
to lead the way and cut down on pollution from cars and power 
plants, and I will go on and on.
    Now, since the Congresswoman has arrived, Congresswoman, I 
want to give you a moment. I am going to stop my opening 
comments for brief comments from you.

              STATEMENT OF HON. FREDERICA WILSON, 
                U.S. REPRESENTATIVE FROM FLORIDA

    Ms. Wilson. Good morning. I am fighting a frog in my 
throat. But it is pleasure to be here this morning. And our 
great Senator, thank you so much for organizing this event.
    And this is a very, very scary subject for South Florida. 
And we have read so many op-eds about what we can foresee in 
the future, and I even wrote one for the Sun Sentinel back in 
December. There was one in Rolling Stone and the Miami Herald 
that just frightened everyone.
    So we are hoping that people in Congress and in our State 
legislatures will begin to take climate change seriously. It is 
something that we cannot afford to ignore. People say it is 
going to cost so much money. Well, whatever it costs, we should 
begin to spend that money.
    And I am very pleased that so many of our counties 
throughout the state of Florida have begun their own 
initiatives, being very creative to address this issue. Because 
before we know it and not so very long from now, we will be 
losing so much of our coast.
    So thank you so much for bringing this important issue to 
our community. I serve on the Science, Space, and Technology 
Committee and as the Ranking Member of Technology in the 
Florida House of Representatives. And it is a pleasure to be 
here and to listen to all of the testimony, because every time 
we listen, we learn. And every time someone talks about it, the 
conversation becomes larger and larger, and maybe some of the 
people who don't even believe in science--some of them serve on 
the Committee with me. They don't believe in science, period.
    [Laughter.]
    Ms. Wilson. They will begin to listen and will begin to get 
on board with this train that we have to set up.
    Thank you so much.
    Senator Nelson. Thank you, Congresswoman.
    [Applause.]
    Senator Nelson. May I ask the witnesses to come up, please?
    As they are getting settled, as we get into this topic, we 
want to make sure that our resources, not just funding for 
research, not just funding for infrastructure, but research and 
brain power, is focused on cutting-edge science and the 
technology that will develop from it and that will help us 
adapt and respond to the effects of sea level rise.
    So what we have in this room today are the leaders who are 
concerned about this issue. Now, by the way, we invited the 
rest of the members of the Commerce Committee. My colleague, 
Senator Rubio, on the Committee is out of town.
    But my colleague, Senator Sheldon Whitehouse of Rhode 
Island, because of the Easter recess, he is actually coming to 
Florida this Thursday and Friday and will be doing a series of 
climate change events, first starting on Thursday, where I will 
join him in Jacksonville, and then he will progress on further 
south. And it is going to end up, I think, in Broward on 
Friday.
    So, all of you leaders, you aren't waiting on anyone to 
start preparing for climate change. We can't afford to, with 
Florida being ground zero. For example, according to the 
National Climate Assessment, about half of $1 trillion in 
coastal property valuation would be at risk given two feet of 
sea level rise in this state. Now, if the last 50 years has had 
five to eight inches, you can see that is right down the line.
    So to reduce the costly and damaging impacts of sea level 
rise, we are going to hear about how some of our towns and 
cities have been making upgrades to stormwater and wastewater 
treatment systems.
    And, oh, by the way, the reason, when the rains come, that 
you don't flood is because we have a flood control system, 
which, by the way, we are trying to completely replumb as we 
restore the Everglades. It was a mistake that was done over the 
course of the past century of draining the Everglades.
    But for the urban areas, drainage is based on gravity. And 
it is not the movie.
    [Laughter.]
    Senator Nelson. Well, if the sea level rises, what happens 
to that ability when the rains come and the floods occur and 
you need to get the water off of the neighborhoods by gravity? 
You can't do it. So you have to go to much more expensive 
systems of pumping.
    And that is just one of the little things that communities 
in South Florida and the Everglades restoration projects are 
all having to face.
    And so today we are going to hear from a very distinguished 
panel. First, we are going to hear from the Mayor of Miami 
Beach, Mayor Philip Levine. And he is going to discuss the key 
actions his administration has proposed to keep the tidal 
floods out of Miami Beach.
    Get ready. The high tides are coming in October. So we are 
going to have a real demonstration here of something that is 
real.
    And then we are going to hear from Dr. Piers Sellers, 
former NASA astronaut, currently the Deputy Director for 
Sciences and Exploration at Goddard Space Flight Center in 
suburban Maryland. And he will help us understand the facts of 
climate change and sea level rise.
    Dr. Sellers, what flight did you fly on?
    Mr. Sellers. 112, 121, 132, sir.
    Senator Nelson. Three flights. This is the real deal right 
here.
    [Applause.]
    Senator Nelson. And the last one was?
    Mr. Sellers. 132, which was 2010. We were up there and saw 
the Gulf oil spill.
    Senator Nelson. He was 2010. The space shuttle program was 
shut down, of necessity, in 2011. Two more flights after Dr. 
Sellers. We had 135 flights, and, as you remember, two of those 
were lost and 14 souls lost.
    And so, thanks to the great work of organizations like 
NASA, there can be no denying that climate is changing and that 
we are seeing the effects right now. And we are going to hear 
about some of NASA's satellites that are so important for us to 
calibrate and measure.
    And then we are going to hear from Broward County 
Commissioner Kristin Jacobs on how the Southeast Florida 
Regional Climate Change Compact uses Federal resources and data 
for adaptation strategies for the impacts of climate change.
    And then we will hear from Dr. Fred Bloetscher, who is an 
Associate Professor at Florida Atlantic. He will cover climate 
change aspects and impacts to Florida's infrastructure as well 
as to its coastal and wetland ecosystems.
    And then we are going to hear from Bill Talbert, Miami-Dade 
Tourism and Convention Bureau, so that we can fully understand 
the economic importance of the coastlines. Florida's coast is 
home to 75 percent of our population.
    Our population, by the way, in Florida, if you didn't know 
it, is a big deal. This year, we are overtaking New York in 
population. By the end of the year, we will be the third 
largest state, close to 20 million people. Seventy-five percent 
of that population lives on the coast. And, of course, in our 
economy, especially here in South Florida, tourism is a key 
contributing factor.
    And, finally, I have asked a representative of the 
reinsurance industry to talk about how private sector uses of 
climate change data will help them in their risk modeling.
    Now, you may recall that before I came to this job I had 
the toughest job that I have ever had in public service, and 
that was Florida's elected insurance commissioner. And during 
that time in the 1990s, I could not get insurance companies to 
pay attention--American insurance companies to pay attention--
to climate change and sea level rise. In the 1990s, European 
insurance companies were beginning to pay attention, but not 
American.
    And so Dr. Megan Linkin, she is the natural hazards expert 
from Swiss Re, to explain how their industry has no choice but 
to try to quantify the cost of climate change impacts to 
measure what is the risk and how much they ought to charge for 
it.
    So I thank everybody that is here. We have a very heavy 
subject.
    Now, what we are going to do, we are going to take your 
written statements, we are going to insert them into the 
permanent record of the Committee, and I am going to ask you 
all if you would share with us, about five minutes each, your 
comments, and then we will get into questions. I may be 
questioning you as you go, but we will see how it progresses.
    So, Mr. Mayor, we will call on you first.

            STATEMENT OF HON. PHILIP LEVINE, MAYOR, 
                  CITY OF MIAMI BEACH, FLORIDA

    Mr. Levine. Thank you. And, Senator, first of all, my 
apologies from that barking constituent that you heard 
upstairs. He wanted to come down here and testify, but we 
wouldn't let him.
    I may go longer than 5 minutes, so cut me off at any time.
    Senator Nelson. Mr. Mayor, whenever you have a bomb-
sniffing dog, that dog is always welcome.
    [Laughter.]
    Mr. Levine. I wish he was that useful.
    [Laughter.]
    Mr. Levine. Subcommittee Chairman Nelson and distinguished 
members of the Subcommittee, it is an honor to be here today to 
share with you how the City of Miami Beach is responding and 
adapting to the impacts of climate change.
    I am Philip Levine, Mayor of the City of Miami Beach. For 
almost 30 years, I have been an integral member of the Miami 
Beach community. Over the years, I have established a number of 
successful beach-based businesses, creating hundreds of job 
opportunities for local and area residents while contributing 
to the city's tax-revenue base.
    In 2010, I was tapped by President Obama's Secretary of 
Commerce to serve on a Task Force advising on U.S. tourism. 
Through my involvement with the task force, I worked to 
strengthen the nation's growing international tourism industry, 
which in turn strengthened our economy.
    Now, as the Mayor of Miami Beach, I face the challenge to 
mitigate the tidal flooding our city is currently experiencing 
as a result of rising seas and to address other pressing issues 
associated with climate change.
    Before I begin, I would like to welcome you and introduce 
you to our unique city. Miami Beach is a barrier island located 
in southeast Florida between Biscayne Bay and the Atlantic 
Ocean that was developed by filling in natural mangrove 
wetlands with dredge soil over a porous limestone base.
    Our urbanized island is situated within the sensitive 
habitat of the Biscayne Bay Aquatic Preserve and has flourished 
because of its natural assets, including parks, natural and 
man-made waterways, sea grass beds, mangrove shorelines, sand 
dunes, and over 7 miles of white sandy beaches.
    Miami Beach is globally recognized for our rich history as 
a cultural and entertainment tourism capital and our role as an 
international center for innovation and business. In 2012, the 
city drew 5.8 million overnight visitors, which spent $9.2 
billion or 42 percent of the tourism revenue generated in 
Miami-Dade County.
    Miami Beach's real estate, including an inventory of 1,516 
properties that contribute to the National Register of Historic 
Places and 12 historic districts, is worth over $23 billion. 
Despite being only 0.3 percent of Miami-Dade County's land 
mass, this value represents 12 percent of the County's total 
real estate value.
    Florida and the U.S. cannot afford to lose our city. 
However, due to climate change, the future of Miami Beach and 
other coastal communities has become more uncertain.
    In the last century, scientists have encountered indelible 
evidence that our climate is warming. The Intergovernmental 
Panel on Climate Change has reported that over the period of 
1901 to 2010 the global mean sea level rose by 0.19 meters, 
which is over half a foot. In 2012, a U.S. Geological Survey 
study concluded that sea levels along the East Coast of the 
country will rise three to four times faster than the global 
average over the next century. And the U.S. Army Corps of 
Engineers has projected that the water around Miami could rise 
up to 0.6 meters, which is two feet, by 2060.
    These projections are alarming, particularly for a city 
like Miami Beach that has an average elevation of 4.4 feet 
using the North American Vertical Datum of 1988. Our geographic 
location and low-lying topography make us inherently vulnerable 
to flooding, storm surge, and other climate change impacts. 
Therefore, it is imperative that our city is prepared to face 
these growing challenges so we can continue to thrive and 
contribute to the success of the region and our Nation.
    Sea level rise is our reality in Miami Beach. We are past 
the point of debating the existence of climate change and are 
now focusing on adapting to current and future threats. My 
testimony here today is to share with you the anticipated 
short-term and long-term challenges Miami Beach is facing due 
to climate change, to highlight the mitigation and adaptation 
strategies we currently have in place to make our city 
resilient in a changing climate, and to instill a sense of 
urgency in the Federal Government to prioritize climate change 
action and policy.
    Climate Change Challenges: Miami Beach's most pressing 
climate change challenge is sea level rise, because we are 
already seeing its effects firsthand. In recent years, Miami 
Beach has observed an increased frequency of urban flooding 
caused by higher tides, elevated groundwater levels, and 
oversaturated soils.
    Street flooding so regularly impacts our city that 
residents have become familiar with its effects on city 
operations and their daily lives. It is not uncommon to worry 
about vehicles parked in areas with quickly rising tidal waters 
or to observe residents wading barefoot through knee-high flood 
waters to access their homes and local businesses.
    This reality is not acceptable, and it is getting worse. 
During last years king tides in October, there was 1\1/2\ feet 
of saltwater that inundated the streets. According to the 
National Oceanic and Atmospheric Administration, the king tides 
this October are anticipated to be three feet and nine inches 
above mean high water, which is almost three inches higher than 
our city saw last year.
    Miami Beach also recognizes storm surge as a pressing 
climate challenge. Like sea level rise, storm surge raises the 
waters surrounding Miami Beach above average levels, resulting 
in flooding, and causes damages to upland properties and 
infrastructure. During Hurricane Sandy in 2012, we experienced 
waves as high as 10 feet, which caused significant flooding and 
beach erosion throughout our city.
    While Miami Beach is familiar with hurricanes, scientific 
studies indicate that extreme weather events, such as storms, 
floods, and hurricanes, will increase in frequency and 
intensity.
    Since I entered office in November 2013, I have made it my 
top priority to mitigate flooding and other climate change 
impacts. In 2014, I formed a Blue Ribbon Panel on Flooding 
Mitigation to oversee the city's response to flooding and 
provide a comprehensive and visionary approach to flood 
management and sea level rise adaptation.
    The panel's mission extends beyond providing guidance on 
stormwater design criteria and helping to prioritize 
infrastructure upgrades. For example, the panel has also made 
recommendations to increase base flood building elevations and 
has discussed the effects of climate change on our urban 
design. The City Commission relies on the panel's 
recommendations to implement short-term strategies and long-
term policies and solutions.
    In coordination with the panel, Miami Beach is working 
diligently to address existing flooding concerns. Guided by our 
updated Stormwater Management Master Plan, we are upgrading our 
aging gravity-based stormwater infrastructure with tidal 
control valves, pump stations, and other innovative structures 
that will improve drainage by preventing seawater from entering 
the system and by quickly expelling flood waters from urban 
areas, even during periods of elevated tidal or water table 
levels.
    Senator Nelson. Mr. Mayor?
    Mr. Levine. Yes, sir.
    Senator Nelson. We are going to wrap up here.
    [The prepared statement of Mr. Levine follows:]

           Prepared Statement of Hon. Philip Levine, Mayor, 
                      City of Miami Beach, Florida
    Subcommittee Chairman Nelson and distinguished members of the 
Subcommittee, it is an honor to be here today to share with you how the 
City of Miami Beach is responding and adapting to the impacts of 
climate change.
    I am Philip Levine, Mayor of the City of Miami Beach. For almost 30 
years, I have been an integral member of the Miami Beach community. 
Over the years, I have established a number of successful Miami Beach-
based businesses, creating hundreds of job opportunities for local and 
area residents while contributing to the city's tax-revenue base. In 
2010, I was tapped by President Obama's Secretary of Commerce to serve 
on a Task Force advising on U.S. tourism. Through my involvement with 
the Task Force, I worked to strengthen the Nation's growing 
international tourism industry--which in turn strengthened our economy. 
Now as the Mayor of Miami Beach, I face the challenge to mitigate the 
tidal flooding our city is currently experiencing as a result of rising 
seas and to address other pressing issues associated with climate 
change.
    Before I begin, I would like to welcome you and introduce you to 
our unique city. Miami Beach is a barrier island located in southeast 
Florida between Biscayne Bay and the Atlantic Ocean that was developed 
by filling in natural mangrove wetlands with dredge spoil over a porous 
limestone base. The island is situated within the sensitive habitat of 
the Biscayne Bay Aquatic Preserve, and is has flourished by linking the 
urban environment to its natural capital including parks, natural and 
man-made waterways, sea grass beds, mangrove shorelines, sand dunes, 
and over seven miles of white, sandy beaches. Miami Beach is globally-
recognized for our rich history as a cultural and entertainment tourism 
capital and our role as an international center for innovation and 
business.
    In 2012, the city drew 5.8 million overnight visitors, which spent 
$9.2 billion or 42 percent of the tourism revenue generated in Miami-
Dade County. Miami Beach's real estate, including an inventory of 1,516 
properties that contribute to the National Register of Historic Places 
and 12 historic districts, is worth over $23 billion. Despite being 
only 0.3 percent of Miami-Dade County's land mass, this value 
represents 12 percent of the County's total real estate value. Florida 
and the U.S. cannot afford to lose our city. However, due to climate 
change, the future of Miami Beach and other coastal communities has 
become more uncertain.
    In the last century, scientists have encountered indelible evidence 
that our climate is warming. The Intergovernmental Panel for Climate 
Change has reported that over the period of 1901 to 2010, the global 
mean sea level rose by 0.19 meters, which is over half a foot. In 2012, 
a U.S. Geological Survey study concluded that sea levels along the east 
coast of the country will rise three to four times faster than the 
global average over the next century and the U.S. Army Corps of 
Engineers has projected that the water around Miami could rise up to 24 
inches by 2060. These projections are alarming, particularly for a city 
like Miami Beach that has an average elevation of 4.4 feet North 
American Vertical Datum 1988.
    Our geographic location and low-lying topography make us inherently 
vulnerable to flooding, storm surge, and other climate change impacts. 
Therefore, it is imperative that our city is prepared to face these 
growing challenges so we can continue to thrive and contribute to the 
success of the region and our Nation. Sea level rise is our reality in 
Miami Beach. We are past the point of debating the existence of climate 
change and are now focusing on adapting to current and future threats. 
My testimony here today is to share with you the anticipated short-term 
and long-term challenges Miami Beach is facing due to climate change, 
to highlight the mitigation and adaption strategies we currently have 
in place to make our city resilient in a changing climate, and to 
instill a sense of urgency in the Federal Government to prioritize 
climate change action and policy
Climate Change Challenges
    Miami Beach's most pressing climate change challenge is sea level 
rise because we are already seeing its effects first-hand. In recent 
years, Miami Beach has observed an increased frequency of urban 
flooding caused by higher high tides, elevated groundwater levels, and 
oversaturated soils. Flooding so regularly impacts our city that 
residents have become familiar with its effect on city operations and 
their daily lives. It is not uncommon to worry about vehicles parked in 
areas with quickly rising tidal waters or to observe residents wading 
barefoot through knee-high flood waters to access their homes and local 
businesses. This reality is not acceptable and it is getting worse. 
During last year's king tides in October there was one and a half feet 
of salt water that inundated the streets. According to the National 
Oceanic and Atmospheric Administration, the king tides this October are 
anticipated to be three feet and nine inches above mean high water, 
which is almost three inches higher than our city saw last year.
    Miami Beach also recognizes storm surge as a pressing climate 
change challenge. Like sea level rise, storm surge raises the waters 
surrounding Miami Beach above average levels, results in flooding, and 
causes damage to upland properties and infrastructure. During Hurricane 
Sandy in 2012, we experienced waves as high as 10 feet, which caused 
significant flooding and beach erosion throughout our city. While Miami 
Beach is familiar with hurricanes, scientific studies indicate that 
extreme weather events such as storms, floods, and hurricanes will 
increase in frequency and intensity.
    Since I entered office in November 2013, I have made it my top 
priority to mitigate flooding and other climate change impacts. In 
January 2014, I formed a Blue Ribbon Panel on Flooding Mitigation to 
oversee the city's response to flooding and provide a comprehensive and 
visionary approach to flood management and sea level rise adaptation. 
The Panel's mission extends beyond providing guidance on stormwater 
design criteria and helping to prioritize infrastructure upgrades. For 
example, the Panel has also made recommendations to increase base flood 
elevations and has discussed the effects of climate change on our urban 
design. The City Commission relies on the Panel's recommendations to 
implement short-term strategies and long-term policies and solutions.
    In coordination with the Panel, Miami Beach is working diligently 
to address existing flooding concerns. Guided by our updated Stormwater 
Management Master Plan, we are upgrading our aging gravity-based 
stormwater infrastructure with tidal control valves, pump stations, and 
other innovative structures that will improve drainage by preventing 
seawater from entering the system and by quickly expelling flood waters 
from urban areas, even during periods of elevated tidal or water table 
levels. Per the provisions of our stormwater management master plan, 
the standards used to design these on-going drainage projects will be 
updated as new data, including sea level rise projections and local 
ground water hydrology, become available. We are building a long-term 
sea level rise adaptation plans that focus on flexible low-regret 
strategies to accommodate a changing environment but that can be 
developed into more robust plans as existing uncertainty diminishes.
    The city is also reinforcing the engineering and natural buffers 
surrounding our city to protect us against storm surge. We are 
prioritizing upgrades to the 3 miles of public seawall surrounding our 
city so they meet stringent design standards that take into account 
projected sea level rise and storm surge. Additionally, we are working 
with experts to identify mechanisms, like public-private partnerships, 
for upgrading the 57 miles of private seawalls. In coastal areas 
without seawalls, we are looking at natural infrastructure, such as 
building a more robust beach and dune system and living shorelines, for 
storm protection. For example, our on-going dune restoration and 
enhancement project that uses an ecosystem-based approach to restore 
the health of the dune system so it can continue to provide critical 
storm surge and erosion protection along our eastern coast.
    Miami Beach is also committed to enhancing the environmental 
sustainability of our city. The Intergovernmental Panel on Climate 
Change concludes that the continued emission of greenhouse gases will 
cause further changes in the climate system, such as a warmer ocean, 
less sea ice, and higher sea levels. Therefore, in accordance with our 
municipal sustainability plan, the city is also making a concerted 
effort to reduce our carbon emissions in our city operations through a 
platform that leads our residents by example. Most recently, the City 
leveraged Federal Stimulus Funds to complete facility lighting and 
lighting control upgrades, HVAC control retrofits, water fixture 
replacements, and a geothermal district cooling plant optimization to 
reduce energy usage in select city facilities. We are also expanding 
the city fleet to include more vehicles that produce low-emissions and 
use alternative fuel options.
    Thanks to the support we have received from the State and Federal 
governments, we are reducing the number of single-occupancy vehicles by 
developing a more robust multi-modal transportation system and 
improving the availability of public transit options. We are designing 
our system using a complete streets approach to improve pedestrian and 
bicycle connectivity throughout the city and encourage the use of 
alternative transportation. We are also working to increase the 
incentives available to residents who are helping us reach our reduced 
carbon emission goals, such as users of low-emission and electric 
vehicles.
    Moving into the future, Miami Beach is looking to become the nexus 
of innovation for short-term and long-term climate change planning. We 
are looking within and beyond our borders for innovative solutions to 
our climate change challenges. In September 2013, the city hosted a 
one-day seminar where experts from southeast Florida and the Kingdom of 
the Netherlands engaged in multidisciplinary, cross-cultural 
discussions designed to explore if, where, and how Dutch approaches to 
water management, flood protection, and urban design are relevant in 
making our city more resilient. Over 100 individuals, including Miami 
Beach residents and business owners, government agency representatives, 
scientists, and students, were in attendance. Thanks to these 
collaborative discussions, we are currently evaluating water management 
strategies that we had not previously considered like the addition of 
water retention to public and private properties and of water storage 
components to new structures.
    We will continue to foster and support information exchange by 
working with our local, national, and international partners like the 
Southeast Florida Regional Climate Change Compact (the Compact). The 
Compact is a collaborative effort among Palm Beach, Broward, Miami-Dade 
and Monroe Counties, their municipalities and partners who have come 
together to facilitate regional planning efforts. In 2012, the Compact 
released the Regional Climate Action Plan that provides an integrated 
framework to guide policies that align regional goals; reduce green 
house gas emissions; address vulnerabilities, such as water supply; 
preserve natural resources; effectively respond to risk and 
emergencies; and incorporates public outreach. Our on-going 
participation with the Compact is helping us and its members coordinate 
resources and develop win-win strategies that accomplish multiple goals 
to address climate change impacts.
Resiliency Planning
    Miami Beach will continue to face numerous challenges in the future 
and is committed to seeking and implementing solutions to reduce 
climate change impacts. Over the next five years, we will spend over 
$300 million to complete neighborhood drainage projects that will 
alleviate chronic street-level flooding and reduce property flooding 
concerns. We are also funding two large-scale coastal protection 
projects, including the $300,000 effort to restore and enhance our dune 
system and our $25.7 million plan to upgrade the 3 miles of public 
seawalls surrounding our city. We are investing in our future, but we 
need your support.
    Miami Beach needs the Federal Government to prioritize identifying 
economically-feasible sand sources for the continued restoration of our 
beaches. Since our beaches were initially restored by the U.S. Army 
Corps of Engineers in 1980, they have not only been instrumental in 
spurring our economic growth and establishing our city as one of the 
country's top tourist destinations, but they have also provided our 
investments and infrastructure with necessary storm surge protection. 
Recently, the offshore sand deposits that the U.S. Army Corps of 
Engineers depends on for the on-going maintenance of our beaches were 
depleted and alternative sand sources have yet to be identified. If a 
viable domestic source cannot be identified by the U.S. Army Corps of 
Engineers on-going Southeast Florida Sediment Assessment and Needs 
Determination (SAND) Study, the city urges that the Federal Government 
take the necessary steps to allow the use of non-domestic sand sources 
in the Dade County Beach Erosion Control and Hurricane Protection 
Project. Your pledge to preserve this critical asset is imperative to 
protect the future of our economy, our infrastructure, and our 
residents.
    We also respectfully request your continued support of Federal 
agencies like the U.S. Global Change Research Program, the U.S. 
Geological Survey, the Federal Emergency Management Agency, and the 
National Oceanic and Atmospheric Administration that inform and 
contribute to our on-going planning and management efforts. Miami Beach 
is already directly engaging qualified experts and fostering cross-
disciplinary dialogues with local universities such as Florida 
International University, Florida Atlantic University, and the 
University of Miami to further investigate local challenges, like the 
anticipated changes to our hydrology. However, U.S. communities, like 
Miami Beach, also depend on the data gathered by these Federal agencies 
to evaluate threats to public services, our infrastructure, our 
residents, and our industries.
    Our city was the first municipality in the region to take sea level 
rise into consideration in stormwater management and we will continue 
to be at the forefront of planning for climate change and contributing 
to make Miami Beach and the region resilient. The city is committed to 
ensuring that we continue to thrive as a world-class tourist 
destination with a high quality of life for its residents and we are 
looking for your commitment to help make that happen.
    Subcommittee Chairman Nelson and distinguished Subcommittee 
members, the City of Miami Beach would like to thank you for convening 
this hearing and for giving me the opportunity to testify before you. I 
would be pleased to answer any questions you may have.

    Senator Nelson. Let me ask you on that point, so that is, 
what you are preparing to be ready for this October and for 
high tides?
    Mr. Levine. Absolutely. Yes, sir.
    Senator Nelson. And the cost of this must be enormous.
    Mr. Levine. Senator, we are projecting the cost to be 
anywhere from $300 million and $400 million. Matter of fact, we 
have a commission meeting tomorrow, and we are going to be 
hopefully passing that resolution tomorrow to give the staff 
the go-ahead to move forward.
    Senator Nelson. And you already have this in the works in 
anticipation of this fall.
    Mr. Levine. We are going to be installing about three pumps 
for this fall, and the rest of the pumps will be in place over 
the next two or three years.
    Senator Nelson. To what degree have you seen flooding in 
the streets of Miami Beach in the last couple of years?
    Mr. Levine. It has gotten worse and worse. It is various 
areas. Alton Road in Miami Beach, which is a main thoroughfare, 
gets very flooded at certain times of the year.
    The interesting thing about it, which we all know, it is no 
longer about rain or storm. On a beautiful sunny day, we could 
see our streets being flooded, which relates to what you said, 
with the water coming back up through our porous limestone and 
flooding our streets through the drains.
    Senator Nelson. And is that flooding on Alton Road, is that 
usually connected with high tide?
    Mr. Levine. It is connected with high tide, yes.
    Senator Nelson. To what degree do the substantial summer 
rains add to the problem?
    Mr. Levine. Well, that is a whole other story, and that 
happens as well, Senator. A lot of times during the summer 
rains, we won't have the proper drainage for the water to get 
out of our streets. So with the pumping system, which are 
saltwater pumps--as you said, we can't rely on gravity 
anymore--we are going to rely on headway of the water to be 
pushed out and treated and back into the bay.
    Senator Nelson. Well, I want to thank you for the 
leadership of the City of Miami Beach.
    We are going to hear from Commissioner Jacobs in a moment 
about the overall efforts of other jurisdictions to get in and 
start preparing for the future problem.
    Dr. Sellers?
    Dr. Sellers, did you do a spacewalk?
    Mr. Sellers. I did six, sir.
    Senator Nelson. Tell everybody, to what degree do you think 
the views in the movie ``Gravity'' looked realistic?
    [Laughter.]
    Mr. Sellers. Actually, sir, the views in the movie were 
spot-on. There was a lot of other stuff in the movie that I 
couldn't have agreed with, if you like, like how good-looking 
astronauts are.
    [Laughter.]
    Mr. Sellers. But the views were right on the target, and it 
is a good 16 dollars' worth just to see those.
    Senator Nelson. And what year were you accepted as an 
astronaut? In what class?
    Mr. Sellers. 1996, Sardines.
    Senator Nelson. I see.
    Mr. Sellers. There were a lot of us, so they called us the 
Sardines.
    Senator Nelson. Dr. Sellers is an example of what is called 
a mission specialist in the space shuttle program, usually 
Ph.D.s, some medical doctors, as opposed to the pilot 
astronauts, who are usually military test pilots and who are so 
accurate that they can put it on a dime. And then some of the 
mission specialists are also test pilots and a Ph.Ds.
    So, Dr. Sellers, share with us for about five minutes.

        STATEMENT OF DR. PIERS SELLERS, DEPUTY DIRECTOR,

             SCIENCES AND EXPLORATION DIRECTORATE,

                NASA GODDARD SPACE FLIGHT CENTER

    Mr. Sellers. OK. Well, good morning, Senator Nelson and 
citizens of Florida. It is my pleasure to appear before you 
today to discuss the state of science on climate change, with 
particular reference to global warming, sea level rise, and the 
likelihood of increases in the intensity of extreme weather 
events like hurricanes.
    I would like to share with you the science community's 
current understanding of why the climate is changing, how it is 
changing, and what some of these predicted changes mean for 
your Floridian coastal areas. We hope this information will be 
useful to you for policymakers and citizens in planning for 
necessary adaptation and mitigation efforts.
    Now, Earth Science has made some amazing advances over the 
last three decades, principally thanks to the data provided by 
a constellation of Earth-observing satellites. The view from 
orbit allows us to observe the whole world many times per day 
using a very wide spectrum of techniques and, most importantly, 
using a small set of well-understood, well-calibrated 
instruments. NASA has been at the forefront of this effort, 
with significant contributions provided by NOAA, USGS, and our 
international partners.
    Now, Senator Nelson and I have both had the privilege of 
seeing the world from space. Space flight allows one to stand 
back, or float back, and take in the big picture. My take-home 
impression--when I say ``home,'' I mean here, Earth--is that we 
inhabit a very beautiful but delicate planet. And the dynamic 
engine of planet Earth is the climate system that allows all 
life here to prosper and grow, including us humans.
    First of all, some facts. Over the last 150 years, the 
evidence from multiple archives consistently shows that surface 
temperatures have warmed, on average, by 0.8 degrees 
centigrade--that is 1\1/2\ degrees Fahrenheit--but with higher 
increases over land and in the northern high latitudes.
    You can see the figure there. You can see the warming 
around the Arctic Circle and the northern continents, in 
particular.
    Greenhouse gases from fossil-fuel burning act as a 
radiation-trapping blanket in the Earth's lower atmosphere and 
are very likely the main cause of the current global warming.
    I could use some light here.
    [Laughter.]
    Mr. Sellers. If I could have some light back? Thank you.
    OK. Can you hear me better now?
    Senator Nelson. That is much better.
    Mr. Sellers. Oh, much. Sorry about that.
    Anyway, so there is the pattern of global warming over the 
last 100 years or so. And you can see the pattern of warming 
around the northern continents and the Arctic Circle in 
particular, warming twice as fast as the rest of the planet.
    OK. The best estimate of the human contribution to this 
warming by our activities is close to 100 percent for the last 
100 years.
    So the planet is predicted to be out of energy balance, 
which means that more energy is coming into the system than is 
leaving. About 90 percent of this extra energy has been used to 
warm the oceans, with about seven percent to melt ice and only 
three percent of the energy to warm the atmosphere.
    The increase in ocean heat content over the last few 
decades is shown in this figure. This is the top two 
kilometers, which is like the top mile and a half, of the 
global ocean; and it is the heat content, how much is being 
stored in the ocean. And you can see it is steadily going up 
over time.
    Figure 3--we talked about ice melt--shows the decline in 
the Arctic ice sea cover over the last 35 years. And this is a 
satellite measurement from 1979 to now.
    These changes in the flow of heat in the climate system are 
driving many of the other changes that we are here to talk 
about today. NASA's Earth Science program has a strong emphasis 
on understanding these changes in the global energy and water 
cycles using computer models and the current constellation of 
17 satellites, with more planned.
    Sea level can be very accurately measured by satellites, 
and since 1993, NASA and its partners, NOAA and the French 
space agency CNES, have been monitoring sea level from space.
    And here you can see, sea level rise, three millimeters a 
year since the first measurements from space, 1993 to 2015--
steady increase.
    Senator Nelson. From 1993 to 2015, what is the NASA 
satellite measurement of total increase?
    Mr. Sellers. I could work that out for you. Boy, it is 
dangerous to do math on your feet, isn't it? So that is about 
70 centimeters, which is about over two feet.
    Sorry, correction, millimeters, which is 70 centimeters, it 
is about six inches or something.
    Senator Nelson. Six inches.
    Mr. Sellers. Yes.
    Senator Nelson. Since 1992.
    Mr. Sellers. No, wait a minute. You are asking me to do the 
calculation right now, and I will do it using the chart. 
Seventy centimeters, which is--I only think in 70 millimeters, 
which is 2\1/2\-3 inches, 3 and a bit inches. Thank you. Three 
inches since 1993.
    Senator Nelson. 1993. Just a little over two decades.
    Mr. Sellers. Yep. That is quick.
    Senator Nelson. That is quick.
    Mr. Sellers. OK.
    OK. In the 2014 IPCC report, there are still large 
uncertainties in the maximum sea level rise scenarios; that is 
the predicted sea level rise. But the likely range has been 
expanded to up to 98 centimeters, which is about three feet, by 
2100. And some of our ongoing research programs are directly 
aimed at reducing this uncertainty.
    As the global climate warms further, contributions from 
melting of the Greenland and Antarctic ice sheets will become 
more significant.
    And since we are running out of time, I will just show you 
this figure, which shows the rate of loss of ice from Greenland 
to Antarctica. And you ought to really look at the sum of 
those, which is the right-hand bar. Different measurement 
techniques are shown with different colors. But that is 250 
gigatons per year being lost from the ice sheets. Each gigaton 
is a cubic kilometer of ice, so this is an enormous ice-mass 
loss rate.
    OK. Let's move ahead and talk about extreme weather. 
Predicted changes in tropical cyclone intensity is the main 
thing that I think is of interest to you. Calculations indicate 
that the mean maximum wind speed of tropical cyclones is likely 
to increase by up to 11 percent globally due to the projected 
warming. The frequency of the most intense Category 4 to 5 
storms will more likely than not increase by a substantially 
larger percentage in some basins, including the North Atlantic.
    Rainfall rates are also predicted to increase. The 
projected magnitude is on the order of 20 percent within 100 
kilometers--that is 60 miles--of the tropical cyclone center. 
This increase in rainfall may increase flooding potential along 
the tracks of land-falling storms.
    NASA has two missions, the Tropical Rainfall Monitoring 
Mission and the recently launched Global Precipitation Mission, 
to give detailed information and help us better understand the 
relationships between rainfall and tropical cyclone intensity.
    Now, what does all this mean for Florida? By the end of the 
century, while an overall decrease in Atlantic tropical 
cyclones is expected, it is more likely than not that the 
frequency of Category 4 to 5 storms will increase--sorry, that 
is hurricanes, Category 4 to 5 hurricanes will increase. And 
rainfall near the centers of these hurricanes will also 
increase.
    It is important to remember that it is the combination of a 
steady increase in sea level, combined with a projected 
increase in the rare but extreme weather events, which 
represents the greatest threat to Florida's coastal areas.
    So, in closing, I emphasize that our ability to 
continuously observe changes in the global climate system, 
including ice sheets, sea level, and ocean characteristics--
this is critical to improving our understanding of the physical 
processes at work.
    All the data collected by NASA are made freely available to 
researchers and the public. Scientists at NASA and elsewhere in 
the U.S. and internationally are studying changes in the 
Earth's system as a matter of high priority in order to provide 
you--that is, the citizens and leaders of this country--with 
the best possible information with which to prepare for the 
future.
    These sustained measurements and the supporting scientific 
research are critically important to improving our 
understanding of this planet and will allow us to better 
predict the phenomena associated with global climate change.
    Thank you for your attention.
    [The prepared statement of Mr. Sellers follows:]

Prepared Statement of Dr. Piers Sellers, Deputy Director, Sciences and 
       Exploration Directorate, NASA Goddard Space Flight Center
    Chairman Nelson and Members of Congress from the state of Florida, 
it is my pleasure to appear before you today to discuss the state of 
science on climate change, with particular reference to global warming, 
sea level rise and the likelihood of increases in the intensity of 
extreme weather events. I would like to share with you the science 
community's current understanding of why the climate is changing, how 
it is changing and what some of these predicted changes mean for your 
coastal areas. We hope that this information will be directly useful to 
policy makers and citizens in setting policies and for planning 
necessary adaptation and mitigation efforts.
    Earth science has made some amazing advances over the last three 
decades, principally thanks to the data provided by a constellation of 
Earth-observing satellites. The view from orbit allows us to observe 
the whole world, many times per day, using a very wide spectrum of 
techniques and, most importantly, using a small set of well-understood 
instruments. NASA has been at the forefront of this effort, with 
significant contributions also provided by NOAA, USGS and our 
international partners. These observations help us understand our 
planet better, and thus improve our ability to project likely future 
climate states, and also yield powerful societal benefits in terms of 
improved weather prediction, agricultural applications and water 
resources management, to name a few.
    Senator Nelson and I have both had the privilege of seeing the 
world from space. Spaceflight allows one to stand back, or float, and 
literally take in the ``big picture''. My take-home impression, and 
when I say home, I mean here--Earth--is that we inhabit a very 
beautiful but delicate planet. And the dynamic engine of planet Earth 
is the climate system that allows all life here to prosper and grow, 
including us humans.
    The global climate is defined as the long-term statistical behavior 
of the atmosphere, ocean, cryospheric and associated bio-geochemical 
cycles. Broadly speaking, climate is what you expect in a given year, 
based on long-term records and some understanding of the underlying 
physics, while weather, which varies from year to year, is what you 
actually get. Sophisticated computer models of the Earth system use 
satellite and other data to provide better weather forecasts. Closely 
related models, based on the same physical principles, are used to 
study the climate.
    The world's climate has been observed to change over many time-
scales as a result of many potential causes. Over the last 150 
years,\1\ the evidence from multiple archives consistently shows that 
surface temperatures have warmed on average by about 0.85 +C (1.6 
+F),\2\ but with higher increases over land and in the Northern high-
latitudes, see figure 1. A wide range of studies indicate that most of 
this increase in temperature, and associated increases in atmospheric 
water vapor pressure, ocean heat content and the decreases in Arctic 
ice extent and mountain glaciers since 1950, at least, are very likely 
due to human activities.\3\
---------------------------------------------------------------------------
    \1\ IPCC 5 Working Group 1 figure 10.5
    \2\ IPCC 5 Working Group 1
    \3\ IPCC ARS, Working Group 1 Summary for Policy Makers
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Figure 1. Color-coded map of global temperature anomalies averaged 
from 2008 to 2012. Reprinted from Five Year Global Temperature 
Anomalies by L. Perkins, 2013, Retrieved from svs.gsfc.nasa.gov/vis/
a000000/a004100/a004135/ and based on data from data.giss.nasa.gov/
---------------------------------------------------------------------------
gistemp/.

    The best estimate is that human activities have contributed close 
to 100 percent of the observed warming over the last 60 years or so.\4\ 
There have been some significant natural variations (warming and 
cooling) in global temperature over this same period due to 
oscillations in the oceans and other factors, but on average these have 
roughly cancelled each other out. Greenhouse gases from fossil fuel 
burning act as a radiation-trapping blanket in the Earth's lower 
atmosphere and are very likely the main cause of the global warming 
post 1950. The evidence suggests that the most important human drivers 
of change are the large increases in well-mixed greenhouse gases 
(particularly carbon dioxide, methane, and chlorofluorocarbons) and 
impacts of atmospheric aerosols (sulfates, black carbon, nitrates). 
Smaller effects are associated with ozone changes at the surface and in 
the stratosphere along with land use changes (deforestation, 
irrigation). Natural drivers of change such as solar activity and 
volcanic eruptions have detectable fingerprints of change in the 
observations, but these changes are not large enough to appreciably add 
to the long-term warming.
---------------------------------------------------------------------------
    \4\ IPCC 5 Working Group 1
---------------------------------------------------------------------------
    The global climate, in simplified terms, is a response to the 
overall energy flow between solar forcing (heat), ocean and atmospheric 
heat transport and storage of this energy and the return of the energy 
back to space through infra-red emission. NASA's Earth Science program 
has a strong emphasis on understanding these changes in the global 
energy and water cycles using computer models and the current 
constellation of 17 satellites, with more planned. Given the continued 
increase in greenhouse gases that slow the loss of infrared energy to 
space, the planet is predicted to be out of energy balance--that is, 
more energy is coming into the system than is leaving. About 90 percent 
of this extra energy has been used to warm the oceans, with about 7 
percent to melt ice and only 3 percent to warm the atmosphere. The 
increase in ocean heat content over the last few decades is shown in 
figure 2. This resulting net flow of heat into the climate system is 
driving many of the changes that we are here to talk about today.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Global Ocean Heat Content. Reprinted from Global Ocean 
Heat and Salt Content by S. Levitus, 2012, Retrieved from 
www.nodc.noaa.gov/OC5/3M_HEAT_CONTENT/. Based on Levitus, S., J. I. 
Antonov, T. P. Boyer, K. Baranova, H. E. Garcia, R. A. Locarnini, A. V. 
Mishonov, J. R. Reagan, D. Seidov, E. S. Yarosh, and M. M. Zweng 
(2012), World Ocean Heat Content and thermosteric sea level change (0-
2000 m), 1955-2010, Geophys. Res. Lett., 39, L10603, doi:10.1029/
2012GL051106, 2012.

    Impacts of current climate change can be seen in multiple 
independent datasets that come from in situ physical measurements and 
remote monitoring by satellite. Figure 3 shows the decline in Arctic 
sea ice as measured by satellite sensors over the last three decades--
it can be seen that the minimum Arctic sea ice extent has significantly 
decreased over that time.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Annual arctic sea ice minimum from 1979 to 2013 based on 
satellite-based passive microwave data. Reprinted from Annual Arctic 
Sea Ice Minimum 1979-2013 with Area Graph by C.Starr, 2013, Retrieved 
from svs.gsfc.nasa.gov/vis/a000000/a004100/a004131/

    Sea level can be very accurately measured by satellites and since 
1993 NASA and its partners, principally NOAA and the French space 
agency CNES, have been monitoring sea level continuously from space 
using satellite altimetry missions including Topex/Poseidon, Jason 1 
and Jason 2 over this time period. Future missions include Jason-3 
(launching in 2015) and the Surface Water Ocean Topography (SWOT) 
mission. Tide gauges provide independent assessments of altimeter data 
and provide region-specific information. These in situ data inform 
local projections that can differ from the global picture because of 
local ground movements and regional ocean currents. Figure 4 shows the 
measured rise in sea level from these satellite data sources.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Global mean sea level rise based on data from satellite 
altimetry.

    It can be seen that global sea level has increased by over 3 mm/
year over the last 20 years. Projections of the expected increase in 
sea level rise over the 21st century have also been raised as we have 
learned more about ice sheets, groundwater changes and ocean heating, 
see figure 5.
    The 2007 Intergovernmental Panel on Climate Change (IPCC) report 
was unable to give a range for the contribution of ice sheet melt to 
sea level rise (but suggested that other terms would lead to a maximum 
of 59 cm by 2100). In the 2014 IPCC report, there are still large 
uncertainties in the maximum scenarios, but the ``likely'' range has 
been expanded to up to 98 cm.\5\ Some of NASA's ongoing research 
programs are directly aimed at reducing this uncertainty.
---------------------------------------------------------------------------
    \5\ IPCC ARS Working Group 1
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]  
 
    Figure 5. Compilation of paleo sea level data, tide gauge data, 
altimeter data, and central estimates and likely ranges for projections 
of global mean sea level rise for RCP2.6 (blue) and RCP8.5 (red) 
scenarios, all relative to pre-industrial values. From Church, J.A., 
P.U. Clark, A. Cazenave, J.M. Gregory, S. Jevrejeva, A. Levermann, M.A. 
Merrifield, G.A. Milne, R.S. Nerem, P.D. Nunn, A.J. Payne, W.T. 
Pfeffer, D. Stammer and A.S. Unnikrishnan, 2013: Sea Level Change. In: 
Climate Change 2013: The Physical Science Basis. Contribution of 
Working Group I to the Fifth Assessment Report of the Intergovernmental 
Panel on Climate Change [Stocker, T.F., D. Qin, G.-K. Plattner, M. 
Tignor, S.K. Allen, J. Boschung, A. Nauels, Y. Xia, V. Bex and P.M. 
Midgley (eds.)]. Cambridge University Press, Cambridge, United Kingdom 
---------------------------------------------------------------------------
and New York, NY, USA.

    The principal factors that affect global sea level are ocean 
temperature, ice volume, and tectonic activity. Over short, decadal and 
centennial, time scales, sea level is most influenced by temperature 
and ice volume changes. Currently, most of the change in global sea 
level is the result of increases in ocean heat content as the ocean 
expands very slightly as it warms. The melting of glaciers is estimated 
to have contributed about one third of the observed sea level rise 
shown in figure 4. As the global climate warms further, contributions 
from melting of the Greenland and Antarctic ice sheets will become more 
significant. Both ice sheets have lost ice at an increasing rate since 
the 1990s. In particular, Gravity Recovery and Climate Experiment 
(GRACE) satellites that can measure small variations in the Earth's 
gravity field from space show that significant amounts of ice sheet and 
glacier melting are occurring in Greenland, Alaska and West Antarctica. 
Figure 6 shows the latest estimates of the annual decrease in the mass 
of the Earth's major ice sheets, derived using four independent data 
sources over the last few decades.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 6. Intercomparisons of ice mass balance estimates using four 
independent geodetic techniques: Input-Output Method (IOM), red), Radar 
Altimetry (RA, cyan), Laser Altimetry (LA, green), and gravimetry 
(GRACE, blue). Four regional areas are considered: the Greenland Ice 
Sheet (GrIS), Antarctic Peninsula Ice Sheet (APIS), East Antarctic Ice 
Sheet (EAIS), West Antarctic Ice Sheet (WAIS), the combined Antarctic 
Ice Sheet (AIS), and the overall estimate for the AIS and GrIS. The 
grey areas constitute the reconciled estimates. From Shepherd, A., et 
al., A Reconciled Estimate of Ice Sheet Mass Balance, Science, 2012

    With the development of satellite and airborne remote sensing 
capabilities, coupled with improved field measurements and modeling 
efforts, we are beginning to understand current changes and gain 
insights into what the future may hold for the Greenland and Antarctic 
ice sheets. Our satellite and airborne capabilities are providing 
observations of glacier flow rates, ice topography (which is indicative 
of the underlying processes that affect change), mass change, and depth 
and topography of the bedrock that lies beneath the ice. This last 
point is particularly important because the geometry of the bed, in 
conjunction with surface elevations, largely determines the extent to 
which glaciers will continue to accelerate or will slow down.
    Current and planned investments in missions such as the Ice, Cloud 
and Land Elevation Satellite 2 (ICESat-2--measuring ice elevation 
change) and the Gravity Recovery and Climate Experiment (GRACE) follow-
on measuring ice mass change) and airborne observations of ice 
topography and glacier bed geometries provide insights into the 
underlying mechanisms of ice sheet changes. Space geodesy, satellite 
and airborne radars all provide more information that helps to pin down 
details related to glacier motion and ice sheet changes. NASA also 
works with data from its international partners to examine the 
variations in flow rates of outlet glaciers, tracking the magnitude and 
character of their acceleration. The information gained from all of 
these projects is incorporated into ice sheet models designed to 
predict how ice sheets will contribute to sea level rise in the next 
one or two centuries. The modeling activity is an integrated effort 
jointly carried out by NASA, the National Science Foundation, and the 
Department of Energy (DOE). NSF also invests in basic observations and 
process studies that are either directly coordinated with or are 
complementary to NASA's activities, and DOE is building dynamical 
models of Greenland and Antarctica, where future sea level rise 
projections take advantage of observations provided by NASA and NSF.
    Sustained observations of ocean elevation from satellites combined 
with tide gauges will provide continuous measurements of sea level 
rise. Current and planned observations of ice sheets and glaciers will 
provide necessary insights into the physical processes that govern 
their contributions to sea level rise. Ongoing and planned measurements 
of ocean characteristics will continue to inform our assessments of 
temperature and circulation characteristics, which affect the rate of 
expansion. Continued observations of the movement of water throughout 
the Earth will provide important insights into the characteristics of 
land-water storage. All of these data are critical inputs used to 
inform models and improve our understanding of the physics, carrying us 
closer to a more complete and robust sea level rise prediction.
    The net flow of heat into the climate system that I referred to 
earlier is likely to affect the intensity and frequency of extreme 
weather events in many parts of the globe. Our ability to predict 
changes in the likelihood of these events is so far relatively limited 
but intensive research continues in this important area. The most 
recent report of the International Panel on Climate Change (IPCC 5) 
states that it is likely that the global frequency of tropical cyclones 
will either decrease or remain essentially unchanged owing to 
greenhouse warming. These findings speak directly to tropical cyclones, 
not other severe weather events. Projected decreases in tropical 
cyclone frequency appear to be related to a weakening of the tropical 
circulation associated with a decrease in the upward mass flux in 
regions of deep convection under global warming. However, there is 
lower confidence associated with these projections.
    The predicted change in storm intensity is a different story-and 
one we can speak to with greater confidence. Calculations indicate that 
the mean maximum wind speed of tropical cyclones is likely to increase 
by +2 to +11 percent globally due to the projected twenty-first-century 
warming, although increases may not occur in all tropical regions. Two 
studies referred to in the latest IPCC report project near-term 
increases of North Atlantic hurricane intensity driven in large part by 
projected reductions in tropospheric aerosols. The frequency of the 
most intense Category 4 and 5 storms will more likely than not increase 
by a substantially larger percentage in some basins, including the 
North Atlantic. For the North Atlantic, an estimate of the time scale 
of observed emergence of projected changes in intense tropical cyclone 
frequency is longer than 60 years. This is because these are relatively 
rare events and getting a statistically significant sample takes time.
    NASA's Hurricane and Severe Storm Sentinel (HS3) mission is 
delivering important information that will improve our ability to 
predict the track and intensity of hurricanes as well as provide 
information related to how hurricanes may intensify in a warming world. 
HS3 uses two Global Hawk unmanned aerial vehicles to fly around and 
over storms developing in the Atlantic. The Global Hawks are capable of 
extended missions, 24 hours or longer, and make multiple passes over 
the developing storms, tracking the wind and convective processes that 
lead to a storm's intensification or weakening. As sea levels rise, 
enhanced understanding of hurricanes and their potential intensities 
and tracks will become ever more important.
    Rainfall rates associated with storms are likely to increase. The 
projected magnitude is on the order of +20 percent within 100 km of the 
tropical cyclone center. The increase in rainfall rates associated with 
tropical cyclones is a consistent feature of the numerical models 
projecting greenhouse warming as atmospheric moisture content in the 
tropics and tropical cyclone moisture convergence is projected to 
increase. This increase in rainfall may increase flooding potential 
along the tracks of land-falling storms. Resulting changes to water 
vapor pathways and the dynamical pattern of the troposphere may lead to 
increased coastal rainfall and drying continental interiors. NASA's 
Tropical Rainfall Measuring Mission (TRMM) and the recently launched 
Global Precipitation Mission (GPM) are providing detailed information 
to help better understand relationships between rainfall and tropical 
cyclone intensity, and how tropical cyclones and extreme weather events 
can affect the U.S. and regions around the world.
    There is low confidence in projected changes in tropical cyclone 
genesis location, storm tracks, duration, and areas of impact. Existing 
model projections do not show dramatic large-scale changes in these 
features. However, the vulnerability of coastal regions to storm-surge 
flooding is expected to increase with future sea-level rise and coastal 
development, although this vulnerability will also depend on future 
storm characteristics.
    What does all of this mean for Florida? By the end of the century, 
the intensity of hurricanes, including rainfall near the centers of 
hurricanes, may increase. It is not currently possible to determine 
whether the number of hurricanes impacting Florida will change. But 
even if hurricane frequency and intensity do not change, rising sea 
levels and coastal development will likely increase the impact of 
hurricanes and other coastal storms on those coastal communities and 
infrastructure. It is important to remember that it is the combination 
of a steady increase in sea level combined with a projected increase in 
rare but extreme weather events which represents the greatest threat to 
Florida's coastal areas.
    In closing, I emphasize that our ability to continuously observe 
changes in the global climate system, including ice sheets, sea level, 
and ocean characteristics, is critical to improving our understanding 
of the physical processes at work. All the data collected by NASA are 
made freely available to researchers and the public. Scientists in NASA 
and elsewhere in the U.S. and internationally are studying changes in 
the Earth's system as a matter of high priority in order to provide 
you--the citizens and leaders of this country--with the best possible 
information with which to prepare for the future. These sustained 
measurements and the supporting scientific research are critically 
important to improving our understanding of this planet and will allow 
us to better predict the phenomena associated with global climate 
change.

    Senator Nelson. Dr. Sellers, I think it is----
    [Applause.]
    Senator Nelson. I think it is important to point out that 
Dr. Sellers? testimony is not modeling, is not a forecast, it 
is a measurement. What he has stated, in fact, has occurred. 
And so those who deny climate change and sea level rise, here 
is the proof right here.
    Now, in one projection that he had toward the year 2100, 
three feet? Does everybody here know what that would do to the 
State of Florida and the 75 percent of the state's population 
that is along the coast? And that is less than a century away. 
And it doesn't happen all at once in the year 2100. It is 
happening right now.
    Dr. Sellers, thank you very, very much.
    Mr. Sellers. Thank you.
    [Applause.]
    Senator Nelson. OK. Commissioner Jacobs, please.

   STATEMENT OF KRISTIN JACOBS, COUNTY COMMISSIONER, BROWARD 
  COUNTY, FLORIDA; MEMBER, WHITE HOUSE TASK FORCE ON CLIMATE 
                  PREPAREDNESS AND RESILIENCE

    Ms. Jacobs. Well, Senator, I have to first thank you so 
much for convening this hearing today. As we have heard, the 
issues facing South Florida are huge and they are long-term, 
and this means that we need to act now.
    As you know, here in South Florida we are close to making 
the community understand that this isn't magic that we are 
talking about, this is science. And science is predictable, and 
there are measures that we can take to address it.
    During my years as a Broward County commissioner, I devoted 
a great deal of time and effort and passion to the issue of 
climate change. And the more that I learned, the more that I 
realized that these issues weren't just affecting Broward 
County; in fact, it was affecting our sister counties, Miami-
Dade, Palm Beach, and Monroe Counties. We were all pretty much 
in the same situation. We were all addressing climate change, 
perhaps a little bit differently from one another.
    And it drew our attention to the fact that the scale of 
this problem facing us meant that we were going to have to 
learn to work together, we were going to have to find a way to 
come together across those human-imposed boundaries of our 
communities, because of course water and hurricanes and other 
natural phenomena don't respect these boundaries, and that we 
needed to also do this across party lines, which is, I think, 
one of the most significant things about what the four counties 
did in coming together and signing a historic compact. This 
fall will make five years since that compact was signed. We are 
still the only counties in the Nation to have come together in 
such a way.
    And I think the issue of party is particularly important 
when you consider that when the saltwater has overtopped your 
seawall and filled up your swimming pool or your sewers are 
backing up into your home, do you really care what party it is 
that the person is from who answers the phone? No, we don't, we 
want answers. And we expect our government to be acting 
proactively.
    So I am thrilled to have this panel and this opportunity to 
talk about what is happening to the 5.5 million residents of 
the four counties and these new heights of cooperation that we 
have begun and embracing this regional approach to resiliency.
    I would first like to begin with some of what we have heard 
today, the doom and gloom that is facing the region. But mostly 
what I would like to end up with is to talk about why I believe 
there is reason for calm optimism, because it isn't all bad 
news.
    The sobering truth, though, is that Broward County and the 
South Florida region are facing significant vulnerabilities. As 
we have already heard this morning, they go from coastal and 
inland flooding, ``inland'' being an operative word. We talk a 
lot about coastal flooding, but it is important to understand 
what happens on the coast affects areas inland, in many cases 
even greater than what we may see on the coast--storm surge, 
saltwater contamination of our drinking water supplies is 
greatly threatened, the impacts to our wastewater systems was 
spoken of a little bit earlier, beach erosion, and the threats 
to the public and private property infrastructure alone.
    We are also going to be experiencing hotter temperatures, 
public health challenges, ocean acidification, and additional 
stresses to the Everglades. Many of these impacts will affect 
critical resources, community sustainability, and the very 
heart of our economic engine, that of tourism.
    Sea level rise is just one result of climate change, but 
the challenges we are facing from this one issue paint a 
daunting picture. To give you an idea of the scope of the issue 
for Palm Beach, Broward, and Monroe Counties, at just one foot 
of sea level rise, up to $4 billion of taxable property will be 
inundated with seawater. And this figure does not include 
Miami-Dade County. At three feet, that figure rises to $31 
billion.
    Keep in mind that a significant percentage of our sewer 
systems, as we have talked about, is gravity-fed. That means 
waste literally rolls downhill. And without the infrastructure 
for pumps to move it, we have some huge costs ahead of us.
    Sea level rise also affects our drinking water. As 
saltwater migrates inland into the freshwater aquifer, we will 
lose our freshwater wells. In Broward County alone, that 
saltwater intrusion line continues to march ever inland. In the 
City of Fort Lauderdale, it is about six miles in, to give you 
an idea. Everything on the other side of that saltwater line, 
all those water wells have been lost.
    As we have talked about this issue across the four 
counties, it is important to understand that in Broward County 
there are 28 water utilities. So when you lose your wells, you 
have to go to the next municipality, which may not be able to 
deliver water to your region.
    So we know and we have heard a lot today about all of the 
different problems facing us as a community, but what I wanted 
to spend some time today to talk to you about was what is 
happening as a part of the compact.
    Through the counties agreeing to come together, we adopted 
110 specific recommendations on climate change. Unprecedented 
that you would take these very controversial issues, 110 
recommendations, and have 4 county governments adopt them. 
These recommendations spanned seven different topics, from 
energy, water, transportation, sustainable communities, natural 
systems, agriculture, and outreach and public policy.
    So with the Climate Action Plan, we understood that within 
the four counties there are more than 100 cities, that they all 
needed to address this in their own ways. But we also 
understood very pragmatically that when we pull together in the 
same direction, we could share not only our financial resources 
but our staff resources as well.
    The other interesting point about moving together in the 
same direction is the counties and the cities have learned how 
to not compete with one another. And I would use Miami Beach as 
an example, where you had multiple counties going after a grant 
who all decided to stand back, instead support one city in 
their bid for a grant, which they were awarded. In the past, we 
might all have had our hands out, all fighting over that 
limited pot of dollars. We have rightly understood that working 
together really will advance the cause of solutions for the 
region.
    And while all of this gives us a great reason to celebrate 
success--and I won't go into all the different ways in which we 
have made changes within our communities--we couldn't have 
gotten here if it weren't for our Federal partners.
    The Federal partners, particularly between NOAA and USGS, 
helped the four counties baseline our science, which sounds 
like an easy task until you get four counties' worth of 
scientists in the room who are all pretty married to their 
projections. It took us about a year to get us all on the same 
page. But that helped us understand how we could then go in and 
make other changes that would pull us in the same direction and 
also help us to speak with one voice.
    The other Federal agencies--it isn't just USGS and NOAA, 
but the Department of Energy, the Army Corps, the Federal 
Highway Administration all have given us their resources.
    We look forward to a time where the Federal Government, who 
is already spending money in our communities and throughout 
this country, will start to tie climate change resiliency--
start to tie funding to the communities' ability to recognize 
and prioritize where their vulnerabilities are. Those dollars 
that are already being spent can be spent more wisely. And 
while we do need huge infusions of new cash, we know that using 
the dollars that we have now more wisely will benefit us all.
    Our President, through the creation of this task force, the 
Climate Preparedness and Resilience Task Force, has drawn 
together governors, mayors, and local commissioners from all 
over the country to craft recommendations so that the Federal 
Government can be even more responsive to us. We are so 
impressed and proud of what our President is doing in rightly 
understanding the challenges and that local governments are 
already in the trenches moving us forward.
    But, Senator Nelson, it is truly a pleasure to be here with 
you today to understand that it isn't just our President that 
understands these pressures and how the Federal Government can 
come and be a resource to us, but you, in holding this 
committee today, have understood, as my mother always said, 
that if you are not at the table, you are on the menu.
    [Laughter.]
    Ms. Jacobs. And so today I just have to tell you how much 
we appreciate sitting at your table today to be able to be part 
of the solution and also to help guide in any way that you need 
us to get your back and making sure that the rest of the Senate 
and the U.S. House of Representatives understand this important 
issue not just to South Florida but the entire United States.
    [The prepared statement of Ms. Jacobs follows:]

  Prepared Statement of Kristin Jacobs, County Commissioner, Broward 
      County, Florida; Member, White House Task Force on Climate 
                      Preparedness and Resilience
    Good Morning Mr. Chairman,

    I would like to personally thank you for your leadership and for 
convening this hearing today in South Florida.
    As you know, Florida, and especially South Florida, is vulnerable 
to the effects of Climate Change.
    During my public service as a Broward County Commissioner, I have 
devoted a great amount of effort--and passion--to addressing Climate 
Change. And the more I learned, the more I realized that the issues 
facing my county were the same issues facing my sister counties here in 
South Florida. The scale of the need for comprehensive responses and 
pragmatic solutions meant that we were going to have to think like 
Mother Nature does: regionally, holistically, and long term. From that 
idea began a four-county effort committed to working across the human-
imposed boundaries of cities and counties. We also faced the 
significant journey of working beyond party lines. After all, when 
saltwater has overtopped the seawall and filled your swimming pool, or 
sewer water is backing up in your house, do you care which party the 
person you call for answers belongs?
    I am thrilled to be before this esteemed panel today to share with 
you the exciting ways our super region, one which represents 5.5 
million people has worked together to reach new heights of coordination 
and cooperation by embracing a regional approach to resiliency.
    I would first like to begin with what some might term as the ``doom 
and gloom'' outlook we are facing, and then share with you why I 
believe there is good reason for calm optimism.
    The sobering truth is that Broward County and the South Florida 
region are facing significant vulnerabilities. They include:

  <bullet> Coastal and inland flooding

  <bullet> Storm surge

  <bullet> Saltwater contamination of drinking water supplies

  <bullet> Impacts to water supply and wastewater systems

  <bullet> Beach erosion

  <bullet> Threats to public and private property and infrastructure.

    We will also experience:

  <bullet> Hotter temperatures

  <bullet> Public health challenges

  <bullet> Ocean acidification and warming with impacts to coral reefs 
        and fisheries

  <bullet> Additional stresses on the Everglades.

    Many of these impacts will affect critical resources, community 
sustainability, and the heart of our economic engine--tourism.
    Sea level rise is just one result of Climate Change, but the 
challenges we are facing from this one issue alone paint a daunting 
picture. To give you an idea of the scope of the issue for Palm Beach, 
Broward, and Monroe counties, at just one foot of sea level rise up to 
$4 billion of taxable property will be inundated with seawater. That 
number does not even include Miami-Dade County. At three feet, that 
figure rises to $31 billion. Keep in mind that a significant percentage 
of our sewer systems are gravity-fed, meaning that waste literally 
rolls downhill. These figures do not take into account the inland 
impacts that would take hold when these non-pump-operated systems begin 
to fail.
    Sea level rise also affects our drinkable water, as salt water 
migrates inland into the fresh water aquifer; we lose our fresh water 
wells. The salt water intrusion line in Broward County has been 
creeping steadily west. As that salt water intrusion line marches ever 
westward and we lose more and more wells, local governments will have 
to seek water from new sources. Local governments may look to the 
nearest utility, but there is no guarantee the infrastructure required 
to provide water to so many new customers will exist. This situation 
will pose great difficulty for local governments.
    It is especially daunting for Broward County, when you consider 
that unlike Miami-Dade County, which has a large water utility, Broward 
has 28 separate individually governed water utilities supplying 31 
cities. The cost of reaching inland to compensate for loss of wells in 
the coastal zone is estimated to be upwards of $350 million in Broward 
County alone.
    Restoring the Everglades must remain a high priority at all levels 
of government, not only for the value of maintaining a unique 
ecosystem, but also because restored freshwater flow through the 
Everglades system will help protect drinking water supplies threatened 
by sea level rise.
    Sea level rise also increases the severity of flooding and makes 
drainage more expensive. Broward County consists of 1,800 linear miles 
of canals and myriad retention lakes all connected and designed to keep 
us dry. Most people do not know that the urbanized area of Broward 
accounts for only one-third of the actual acreage in our county. The 
other two-thirds are held in conservation land, our beautiful and one-
of-a-kind Everglades. The Everglades has a higher elevation than the 
urbanized area and the cost of pumping and maintaining water levels 
continues to escalate.
    Here are few other examples from the region.
    Fort Lauderdale recently estimated that it might cost $1 billion to 
upgrade the city's storm water system in the face of rising sea levels 
and increased flooding. Miami Beach pegged its storm water upgrades at 
$400 million. Pumps to replace gravity water control structures are 
estimated at $50 million each. This doesn't speak to the improvements 
needed within associated drainage basins, or improvements to roadways 
and other infrastructure. There's no question that these are large 
numbers. These examples show that these issues are not limited to just 
one city or county.
    Now the reasons for my optimism.
    In 2009 Broward, Palm Beach, Miami-Dade and Monroe Counties came 
together to form the Southeast Florida Regional Climate Change Compact. 
I am proud to say that we have been able to work together on an 
agreement to reduce greenhouse gas emissions and to adapt to climate 
change impacts we are already living with.
    While we have been recognized both nationally and internationally 
as a leading example of effective local climate action, I am most proud 
of the work the staff of each county has done in putting together our 
Regional Climate Action Plan covering 110 specific recommendations for 
resiliency divided into seven categories:

  1.  Energy

  2.  Water

  3.  Transportation

  4.  Sustainable Communities

  5.  Natural Systems

  6.  Agriculture

  7.  Outreach and Public Policy

    While the Regional Climate Action Plan leaves it up the individual 
counties and cities to implement the plan in the ways which works best 
for them, we are finding that in practice, it makes fiscal and 
practical sense to work together. It is this spirit of cooperation, the 
ability to share and learn from each other, which has led to 
accelerated action throughout our region.
    Examples of what we have seen so far include:

  <bullet> Incorporation of climate change considerations into county 
        comprehensive plans and other planning documents,

  <bullet> Efforts to advance a regional surface water reservoir 
        providing water supply benefits for communities in Palm Beach, 
        Broward and Miami-Dade counties by improving surface water 
        storage, diversion of storm water runoff and aquifer recharge.

  <bullet> The formation of a coastal resilience work group to expand 
        the use of coral reefs, mangroves, dunes and other living 
        shoreline projects. When integrated with urban systems, these 
        provide optimum shoreline protection, habitat preservation, or 
        restoration.

    And while all of this gives us great reason to celebrate success, 
the truth is, we could not have done it without our Federal partners.

  <bullet> Agencies like NOAA and USGS helped the four counties 
        baseline our projections for how high the sea will rise and by 
        when so we are all working from the same set of assumptions.

  <bullet> A grant from NOAA is enabling Broward County, the South 
        Florida Regional Planning Council and the City of Fort 
        Lauderdale to explore the use of ``Adaptation Action Areas.'' A 
        recent innovation in Florida law that allows communities to 
        identify climate-vulnerable areas and prioritize where 
        adaptation investments should go first.

  <bullet> The Regional Climate Action Plan mitigation priorities 
        include mitigation and programs like the Go Solar Florida 
        program which is funded by a U.S. Department of Energy Grant. 
        This program makes installing rooftop solar easier and more 
        affordable for homeowners.

  <bullet> Broward and Miami-Dade counties have worked with the U.S. 
        Geological Survey to create advanced hydrologic models that 
        look at the interaction between sea level rise, stormwater and 
        potable water supply.

  <bullet> Compact Partners are benefiting from a Federal Highway 
        Administration grant to assess the vulnerability of 
        transportation infrastructure to climate change.

    Local governments and regional initiatives like the Compact play a 
significant role in supporting regional decision making with technical 
support, expertise, and financial assistance from the Federal 
Government.
    Although the local level is where much of the needed adaptation to 
climate impacts will happen, we are still in great need of policies at 
the state, Federal and international levels that reduce carbon 
pollution and accelerate the transition to a clean energy economy.
    I have the personal honor and privilege of serving on President 
Obama's State, Local and Tribal Leaders Task Force on Climate 
Preparedness and Resilience. I remain immensely impressed with our 
President's consistent recognition that local governments are already 
in the trenches dealing with the impacts of climate change and that we 
have common sense solutions to offer.
    Our President, through the creation of this Task Force, has drawn 
together governors, mayors and county commissioners from all over the 
country to craft recommendations to help the Federal Government 
understand exactly what they what we need in order to become prepared 
for and resilient to the effects of a changing climate, whether its 
drought, or flood, or fire or hurricanes or mudslides.
    Senators, I must tell you that it is not only impressive that our 
President is listening and reaching out to us, but so too, are you. You 
have rightly recognized that, as my mom used to quip, ``If you're not 
at the table, you're on the menu.''
    On behalf of the entire Broward County Commission and our sister 
Counties, Miami-Dade, Palm Beach and Monroe, and more than 100 cities 
in the South Florida region, I thank you for the opportunity to sit at 
your table today and share my insights.
                                 ______
                                 
                                [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                
           Southeast Florida Regional Climate Change Compact

    WHEREAS, there is consensus among the world's leading scientists 
that global climate change is among the most significant problems 
facing the world today; and

    WHEREAS, Florida is considered one of the most vulnerable areas in 
the country to the consequences of climate change with Southeast 
Florida on the front line to experience the impacts of climate change, 
especially sea level rise; and

    WHEREAS, Broward, Miami-Dade, Palm Beach and Monroe Counties, 
herein the four counties that constitute the Southeast Florida Region, 
share in common a strong quality of life rooted in the region's rich 
cultural heritage, vigorous economy, and environmental resources of 
global significance; and

    WHEREAS, the aforementioned four counties of Southeast Florida, 
which represent approximately 30 percent of the population of the State 
of Florida, are physically linked one to the other by the Atlantic 
Ocean coastline and share some of the world's most renowned natural 
resources such as the Everglades, our unique coral reefs, beautiful 
beaches, and fragile Keys ecosystem; and

    WHEREAS, the four counties of Southeast Florida and their 
respective populations, totaling more than five million residents, are 
expected to share in disproportionately high risks associated with 
climate change due to low land elevations, rising sea level 
projections, and anticipated increases in tropical storm events; and

    WHEREAS, rising sea levels could limit the effectiveness of 
critical drainage infrastructure, endanger beaches, and coastal natural 
resources and increase incidents of saltwater intrusion on the Biscayne 
Aquifer--putting at risk the drinking water supply for the entire 
population of Southeast Florida; and

    WHEREAS, local governments, and the region as a whole, must give 
significant consideration to adaptation strategies designed to protect 
public infrastructure, property, water resources, natural areas and 
native species, and basic quality of life; and

    WHEREAS, the aforementioned four counties of Southeast Florida 
account for a combined Gross Domestic Product of more than $2.5 billion 
annually and more than 37 percent of statewide economic output; and

    WHEREAS, while the four counties of Southeast Florida have 
independently taken steps to address global climate change, all parties 
recognize that coordinated and collective action on this, the defining 
issue for Southeast Florida in the 21st Century, will best serve the 
citizens of the region;

    NOW THEREFORE, BE IT RESOLVED BY THE BOARDS OF COUNTY COMMISSIONERS 
OF THE FOUR COUNTIES OF SOUTHEAST FLORIDA:

    SECTION 1: That each county shall work in close collaboration with 
the aforementioned counties of Southeast Florida party to this compact 
to develop a joint policy position urging the United States Congress to 
pass legislation that recognizes the unique vulnerabilities of 
Southeast Florida to the impacts of climate change and to further a 
joint policy position that includes specific recommendations regarding 
the allocation of Federal climate change funding based on vulnerability 
to climate change impacts. Such recommendations might include 
designation of areas of Southeast Florida as uniquely vulnerable and of 
Federal interest for the purpose of securing enhanced levels of Federal 
participation in regional adaptation projects.

    SECTION 2: That each county shall work in close collaboration with 
the other counties party to this compact to develop additional 
legislative policy statements relating to global climate change and 
future legislation to be considered by the Congress of the United 
States for transmittal to the Congressional Delegation representing, in 
part or in whole, districts within the area covered by this compact.

    SECTION 3: That each county shall work in close collaboration with 
other counties party to this compact in developing joint position 
statements on proposed State legislation and energy/climate policies 
including but not limited to issues such as the region's energy and 
climate security and a renewable energy portfolio standard that defines 
renewable energy sources as wind, solar, geothermal, biomass, landfill 
gas, qualified hydropower, and marine and hydrokinetic energy, and also 
including nuclear energy, and to collaborate on other emerging energy/
climate issues that may be considered by the 2010 Florida Legislature 
for transmittal to the Legislative Delegation representing, in part or 
in whole, districts within the area covered by this compact.

    SECTION 4: That each county shall work with other counties party to 
this compact in developing joint position statements for future State 
legislation that may be considered by the Florida Legislature for 
transmittal to the Legislative Delegation representing, in part or in 
whole, districts within the area covered by this compact.

    SECTION 5: That each county shall commit appropriate staff 
resources and expertise, within budget constraints, to participate in a 
Regional Climate Team with other counties party to this compact toward 
the development of a Southeast Florida Regional Climate Change Action 
Plan.

    SECTION 6: That each county shall work with other counties party to 
this compact in developing a Southeast Florida Regional Climate Change 
Action Plan, understanding that no county will work at cross-purposes 
with the other counties. The Action Plan could, at a minimum, include 
the following components:

  <bullet> A baseline of greenhouse gas emissions for Southeast 
        Florida;

  <bullet> Strategies for coordinated emission reductions throughout 
        the built environment to include the use of energy efficiency, 
        energy conservation, and the use of demand-side renewable 
        energy resources;

  <bullet> Strategies for coordinated emission reductions from the 
        transportation sector to include increased reliance on public 
        transit, emerging vehicle technologies, and advanced biofuels;

  <bullet> Strategies for coordinated emission reductions resulting 
        from changes in local and regional land use;

  <bullet> Strategies for the coordinated regional preparation for and 
        adaptation to a rapidly changing global environment based upon 
        regional mapping of projected sea-level rise and any resulting 
        amplification of localized impacts of tropical cyclone events. 
        Such strategies shall incorporate climate preparation concerns 
        for the regional economy, regional infrastructure and the built 
        environment, social and cultural needs, and natural systems 
        within the four counties party to this compact.

    SECTION 7: That each county shall commit to participating with 
other counties party to this compact in hosting the Second Southeast 
Florida Regional Climate Change Summit in October, 2010.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 ______
                                 
       SOUTHEAST FLORIDA REGIONAL CLIMATE CHANGE COMPACT COUNTIES
          2014 FEDERAL ENERGY AND CLIMATE LEGISLATIVE PROGRAM
Background
    Southeast Florida is one of the most vulnerable areas in the 
country to climate change and sea level rise. Recognizing their shared 
challenges, Palm Beach, Broward, Miami-Dade and Monroe counties 
(Compact counties) adopted the Southeast Florida Regional Climate 
Change Compact (Compact) in 2010. The Compact includes a commitment to 
develop and advocate for joint state and Federal legislative policies. 
Therefore, the Compact counties have adopted a Federal Energy and 
Climate Legislative Program each year since 2011.
    The following Federal policies and priorities form the Southeast 
Florida Regional Climate Change Compact Counties 2014 Federal Energy 
and Climate Legislative Program:
Infrastructure Investments
    SUPPORT--the Water Resources Reform and Development Act of 2013 
(WRRDA) and specific support for provisions:

  <bullet> Authorizing Everglades restoration projects, either by name 
        or by reference to those projects for which Chief's Reports 
        have been completed.

  <bullet> Creating a procedure for later authorization of projects 
        under review at the time of passage of the Act, such as the 
        Central Everglades Planning Project.

  <bullet> Allowing non-federal sponsors to receive reimbursement or 
        in-kind credit for project expenditures incurred before the 
        execution of a Project Partnership Agreement with the Army 
        Corps of Engineers.

  <bullet> Creating an evaluation procedure for Federal shore 
        protection projects nearing the end of their 50-year Federal 
        authorization and allowing the Assistant Secretary of the Army 
        to extend the authorization for an additional 15 years.

  <bullet> Supporting the potential use of nonstructural alternatives, 
        such as dunes, wetlands, marshes, reefs, mangroves, and other 
        natural features.

  <bullet> Creating a Water Infrastructure Finance and Innovation 
        Authority (WIFIA).

    SUPPORT--federal legislation that would create and fund a national 
infrastructure bank or other new infrastructure funding source to 
finance projects needed by state and local governments to adapt to 
climate impacts and address aging infrastructure. Emphasis should be 
placed on investments in water management, water supply, 
transportation, and other projects that make urban infrastructure more 
resilient to extreme weather events and rising sea levels.
    SUPPORT--legislation that creates incentives for the consideration 
of climate impacts, including sea level rise, in Federal aid for 
transportation, water, and other infrastructure projects.
    SUPPORT--the use of emissions reduction and climate adaptation 
performance measures and standards to evaluate infrastructure 
investments, including transportation and water projects.
    SUPPORT--federal programs that shift priorities toward public 
transit and non-motorized travel, including reinvestment in existing 
infrastructure and communities, support for public transportation and 
transit-oriented development, and congestion management strategies 
other than new road building.
Adaptation and Resilience
    SUPPORT--Congressional recognition of adaptation as a critical 
climate change issue in the development of all legislation and 
appropriations priorities.
    SUPPORT--specific recognition in Federal legislation of land use 
designations made by local governments for the purposes of building 
community resilience, such as the Adaptation Action Areas (AAAs) 
defined in Chapter 163, Florida Statutes, and the development of 
regulations that give priority consideration to local land use 
designations for climate-resilient investments.
    SUPPORT--federal grants, technical support, and other services to 
aid community planning that incorporates sustainability and climate 
adaptation practices.
    SUPPORT--reform of the Stafford Act to allow greater flexibility in 
disaster reconstruction efforts to ensure that properties and 
infrastructure are not merely rebuilt to their previous condition, but 
to higher, more resilient standards (where appropriate).
    SUPPORT--funding for weatherization programs provided by the U.S. 
Department of Energy to harden buildings against windstorm impacts.
    SUPPORT--continued funding for the Federal Emergency Management 
Administration's (FEMA) natural hazard mitigation programs to include 
mitigation for hazards associated with climate change impacts.
    SUPPORT--the continued eligibility of funding for activities to 
adapt to climate change and extreme weather events under the Federal-
Aid and Federal Lands Highway programs, including vulnerability/risk 
assessments, highway project development, environmental review and 
design, construction of projects or features to protect existing 
assets, and evaluation of life cycle costs.
Program Cuts and Restrictions
    OPPOSE--reduction in funding for critically important conservation, 
public health, and environmental protection efforts that reduce carbon 
emissions, support climate preparedness, build resilience to extreme 
weather, and protect the Nation's natural resources.
Climate and Energy Research
    SUPPORT--creation of a National Climate Service within the National 
Oceanic and Atmospheric Administration (NOAA) as a means of providing 
climate-related science and technical products needed by state and 
local governments to prepare for the potential impacts of global 
climate change.
    SUPPORT--continued funding for the U.S. Global Climate Change 
Research Program and the completion of its National Climate Assessment 
process currently underway under the auspices of the U.S. Global Change 
Research Act of 1990.
    SUPPORT--funding to ensure that the Joint Polar Satellite System 
(JPSS) is launched as quickly as possible.
    SUPPORT--funding for a ``gap-filling'' weather satellite to provide 
critical data between the end of the current polar satellite's lifetime 
and the launch of the next-generation Joint Polar Satellite System.
    SUPPORT--funding for advanced energy research programs.
Energy and Emissions
    SUPPORT--reauthorization of and renewed funding for the Department 
of Energy's Energy Efficiency and Conservation Block Grant (EECBG) 
Program.
    SUPPORT--continued funding for the U.S. Department of Energy to 
support the Southeast Florida Clean Cities Coalition and funding for 
implementation of projects developed under the Clean Cities Community 
Readiness and Planning for Plug-in Electric Vehicles and Charging 
Infrastructure, Funding Opportunity Number, DE-FOA-0000451 (Drive 
Electric Florida & US-1 Corridor Pilot Project).
    SUPPORT--continued funding for the U.S. Environmental Protection 
Agency to support the Southeast Diesel Collaborative and the National 
Clean Diesel Funding Assistance Program.
Property Assessed Clean Energy (PACE)
    SUPPORT--federal legislation that supports local Property Assessed 
Clean Energy (PACE) programs, specifically by removing barriers to PACE 
and similar programs for residential properties.
Oil Exploration and Drilling
    OPPOSE--oil exploration and drilling in Federal waters on Florida's 
Outer Continental Shelf.
Everglades Restoration
    SUPPORT--the Everglades for the Next Generation Act, which would 
expedite implementation of projects related to the Comprehensive 
Everglades Restoration Plan.
    SUPPORT--continued focus on Everglades restoration as an essential 
component of protecting regional water supply and building regional 
climate resilience.
Tax Policy
    SUPPORT--renewal of tax incentives for renewable energy production.
    SUPPORT--the elimination of Federal subsidies for oil and gas 
production.
    SUPPORT--renewal of the recently-expired Section 179D of the 
Internal Revenue Code, which allows deductions for energy efficiency 
improvements in commercial buildings, and an increase in the per-
square-foot value of the deduction from the previous value of $1.80.
    SUPPORT--legislation that affirms equal treatment of pretax 
spending programs for transit and parking and makes future increases in 
the transit program maximums automatic (as the parking maximum 
increases already are).
Other
    SUPPORT--amending the National Flood Insurance Program (NFIP) to 
allow multi-peril coverage from a national catastrophic insurance fund.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                                 
                               [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                  ______
                                 
    Commissioner Jacobs also submitted with her prepared statement 
Southeast Florida Climate Change Regional Compact, ``A Region Responds 
to a Changing Climate: Southeast Florida Regional Climate Change 
Compact Counties Regional Climate Action Plan,'' October 12.
    The report can be found at http://
www.southeastfloridaclimatecompact.org/wp-content/uploads/2014/09/
regional-climate-action-plan-final-ada-compliant.pdf.

    Senator Nelson. Well, Commissioner, I want to thank you. 
What you all are doing in South Florida, bringing together all 
these governments, I mean, it sounds like you must be Merlin 
the Magician to get everybody together and then to support a 
grant application of one jurisdiction. So thank you, thank you, 
thank you.
    I want you to know that I come to the table not only as 
someone who has seen Florida grow over the years as a fifth 
generation Floridian, with my family having come to Florida 185 
years ago in 1829, but also because of that experience that Dr. 
Sellers mentioned. When you look out the window of a spacecraft 
and look back at our home, it is so beautiful, it is so 
colorful, it is so alive, it is so creative, and yet it looks 
so fragile.
    If we had a lot of time, Dr. Sellers and I could tell you 
what you can see from space with the naked eye. Coming across 
the Amazon region, across Brazil, you could actually see the 
effects of the destruction of the rainforest because you could 
see the color contrast. And then you could look to the east, to 
the mouth of the Amazon, and you could see the siltation, which 
is natural, but the siltation for hundreds of miles out into 
the Atlantic because of the destruction of the trees upriver.
    On our flight, we could see--I flew a few years before Dr. 
Sellers--we saw a volcano erupt in Central America, and the 
westerly winds were carrying the smoke way out into the 
Pacific. You could see, looking back to the north, the horizon 
as we came across southern India. You could see the Himalayas 
looked like they rose to the heavens.
    I became more of an environmentalist having had that 
perspective. And what I concluded from that experience was that 
I wanted to be a better steward of what the good Lord has given 
us. And yet, we continue to mess it up.
    OK, Dr. Bloetscher, now, you are a scientist right here in 
our State university system at Florida Atlantic.
    Mr. Bloetscher. That is right.
    Senator Nelson. I want you to share with us what you have 
concluded.

          STATEMENT OF FREDERICK BLOETSCHER, ASSOCIATE

         PROFESSOR, DEPARTMENT OF CIVIL, ENVIRONMENTAL,

     AND GEOMATICS ENGINEERING, FLORIDA ATLANTIC UNIVERSITY

    Mr. Bloetscher. Well, I want to thank you very much, and 
distinguished guests, for holding this hearing and allowing me 
to speak at it.
    As the other speakers have noted, South Florida is 
experiencing climate change impacts in primarily sea level 
rise, but we see a lot of other impacts that are potentially 
there. But I am going to focus on the sea level rise because it 
is the one that is permanent. Storms and things like that are 
temporal in nature.
    But we have seen over the last--since 1930, we have seen a 
steady increase in sea level rise. And keep in mind that most 
of the drainage system for South Florida was based on 1930s sea 
level. When we built the drainage systems here over the next 30 
years, what we did was we went as far west as we possibly 
could, drained by gravity. That is why the dikes are out there 
off of 27, with the assumption that it would drain by gravity 
to the ocean. Sea level rise kind of frustrates that initial 
goal, and as a result we see more frequent flooding not only on 
the coast but inland, because inland doesn't discharge as 
easily.
    We have done some modeling. We have used the NASA 
satellites, we have used USGS's satellites, we have used NOAA's 
satellites. And we have come up with some methodologies to 
convert that to very high-resolution LIDAR, plus or minus six 
inches, because inches matter in South Florida.
    And what we have been able to determine is areas where we 
are likely to see flooding by matching that up with groundwater 
levels, which increase as you go west, while typography goes 
down as you go west. And as a result, we see a lot of area west 
of I-95, out toward the dike, that we are going to see a lot 
more frequent flooding. There is less soil capacity, so even 
smaller rainstorms will cause it to flood.
    Those are problems that we are going to have to address as 
time goes on. Like I said, we have underestimated that.
    So what can we do? And the answer, to us, is adaptation. 
You have already heard from Ms. Jacobs about the counties 
getting together. Local governments have done some things. Five 
of the universities in the Florida university system have 
gotten together. We have created the Florida Climate Institute. 
FAU is one of the partners, and FAU's focus has been adaptation 
strategies.
    What we look at is, we are able to take apart 
municipalities, and we have looked specifically at Miami Beach, 
Miami-Dade County, the Keys, Broward County in some areas, and 
various other places up into Palm Beach County, and we can 
identify those areas that are likely vulnerable.
    And then we have created some toolboxes of concepts that 
might work. You are going to see a lot more pumping of 
stormwater. I think that is an obvious one.
    But we are also going to see that some of our coastal 
salinity structures need to move a lot farther east. If you go 
up to Dania Beach and Hollywood, the salinity structures are, 
you know, 10 miles inland. It creates that saltwater intrusion 
problem that was referenced. We are going to have to change 
that. There are some in Miami-Dade County that are same way.
    Senator Nelson. What is a salinity structure?
    Mr. Bloetscher. They are basically gates that are put on 
the canals to keep saltwater from migrating inland, and then it 
keeps the freshwater behind it. And so the idea is it is a 
control structure to control the elevation of water.
    The problem is, if you put them too far inland, they are 
actually on the back side of the ridge. And the ridge in South 
Florida, Henry Flagler, when he built the railroads here, a 
very smart man, built the railroads on the ridge, the high 
point, which is about two miles off the coast. If you have a 
salinity structure that is 10 miles inland, you have a lot of, 
you know, downslope. And as a result, the water levels back 
there can't be held as high, and it leads to the saltwater 
intrusion problem, amongst others.
    So we have looked at that. What we see when we start doing 
this modeling is the roadways are the first things to flood 
everywhere. And the Mayor has referenced that, and we saw the 
videos that were going on behind you. You saw a lot of flooding 
there. And they are the low areas, but it is also where the 
water and the sewer and the electric and transportation, all 
the things that we require to live exist in those roadways.
    And we are going to see municipalities come up with levels 
of service, trying to define what is the point at which we are 
going to try to build to what are the elevations to keep 
stormwater out.
    Now, you have heard a lot of fairly negative news, but I am 
fairly confident that there are solutions to this problem. We 
have come up with this toolbox, but there are ideas, there is 
willingness to do that. There is a lot of planning that is 
required. It is not an immediate thing; it is a slow, steady 
creep of sea level rise going up, which allows us to buy some 
time to do the appropriate planning, not spend money twice for 
the same thing, build incrementally into those strategies that 
will help us protect the land that we have and our economy.
    I look at the risk issue, and I talk about this a lot. The 
risk issue is there are 5.7 million people in Southeast 
Florida, there is almost four trillion dollars' worth of 
property that is down here, and there is almost $300 billion a 
year in an economy. That is a significant piece of Florida. It 
is something that is worth protecting.
    So we are going to have to coordinate our efforts. The 
climate compact was one good way to do that. One government 
can't do it. You are going to see a lot of local level 
decisionmaking, but they have to work together, because if one 
person does it and the other municipality doesn't, it doesn't 
really help the larger situation.
    What is needed? Planning. We are going to have to 
investigate some technologies that we haven't done, like 
infiltration trenches to keep road levels low. We have never 
tried that in Florida. There are some investigations and some 
testing and research that needs to be done there.
    Senator Nelson. What is an infiltration trench?
    Mr. Bloetscher. It is a concept that is used for water 
supply in the Midwest. And the idea is that you create a trench 
and you allow water to flow into it, the groundwater to flow 
into it, and then you pump it offsite.
    They use that in the Midwest along, like, the Ohio River, 
for example. The Ohio River has a lot of pollutants and things 
in it. It is very turbid much of the year. And so the idea is 
they allow the water to flow through the soil into the 
infiltration trench, and then they pull it off.
    We do exfiltration, so we have pipes that are perforated, 
and water then moves into the soil. The problem is, as sea 
level rise goes up, the water doesn't go into the soil. But we 
could repurpose a lot of that if we do some testing and 
determine how well that would work. And then we could actually 
pump those things going backward, and it would pull water into 
those pipes that are perforated.
    The idea there being is that along those roadways, 
especially critical roadways, we could lower the water table 
along the roadway. It would protect the road base, it would 
protect the sewers, make the stormwater system work better. But 
there is an investment in significant dollars that are there.
    And in all of the changes that we have here, there is going 
to be significant dollars and a much more managed system than 
we have now. But if you look at the value of the economy and 
the property and what goes on here, there are tools. We do need 
state, Federal partners to participate.
    You know, one of the issues that is there is, so when you 
do that infiltration trench, where does that water go? It is 
going to have nutrients in it, things like that, so dumping it 
into Biscayne Bay or offshore is probably not the right answer. 
So there is some technology that needs to be investigated. We 
need to see if we can use some of that water for water supply, 
but there is some testing to figure out what it is going to 
take to clean that up.
    So we need time. We have some time, but we need to take 
some steps to start investigating some of these solutions so 
that when it is time to implement them they are there.
    Senator Nelson. Thank you, Professor.
    Mr. Bloetscher. Thank you very much.
    [The prepared statement of Mr. Bloetscher follows:]

   Prepared Statement of Frederick Bloetscher, Associate Professor, 
Department of Civil, Environmental, and Geomatics Engineering, Florida 
                          Atlantic University
    Senator Nelson and Distinguished Guests,

    There has been significant discussion about the potential impacts 
of climate change on the world: more intense rainfall events, more 
severe thunderstorms and tropical cyclones, droughts, loss of glacial 
ice and storage, increased demand for crop irrigation. However for much 
of the State of Florida, and respectfully for much of the coastal 
United States east of the Rio Grande River, the climate issue that is 
most likely to create significant risk to health and economic activity 
is sea-level rise. Data gathered by NOAA from multiple sites indicates 
that sea level rise is occurring, and has been for over 100 years (see 
Figure 1). Similar charts exist across the southeastern U.S. and Gulf 
states.
    The impact of climate change on Florida is two-fold--Florida often 
is water-supply limited as topography limits the ability to store 
excess precipitation for water use during the dry periods and sea level 
rise will exacerbate local flooding. The highly engineered stormwater 
drainage system of canals and control structures has effectively 
enabled management of water tables and saltwater intrusion by gravity. 
The advent of sea-level rise will present new challenges, because the 
water table is currently maintained at the highest possible levels to 
counter saltwater intrusion, while limiting flood risk in southeast 
Florida's low-lying terrain and providing for water supplies. As sea 
level rises, the water will not flow by gravity, which disrupts that 
balance struck between flood risk and water supply availability in the 
canal system.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 1. Sea Level Rise in Miami Beach, 1930-1980

    Occasional flooding is not new to Florida, but the increasing 
frequency we currently experience is related to sea level rise, not 
just along the coast, but for large expanses of developed property 
inland due to topography and groundwater levels. As a result, the 
challenge for water managers in the state, especially in southeast 
Florida, is to control the groundwater table, because control of the 
water table is essential to prevent flooding of the low terrain.
    The issue is not lost on local governments in south Florida nor on 
the educational institutions in the area. Florida Universities are 
playing in helping this region and the State to both understand the 
State of the art in the science of sea level rise and other climate 
related changes and to identify ways in which we can mitigate, respond 
to and adapt to these changes. My university, Florida Atlantic 
University, is located in this vulnerable part of the State has been 
proactive in partnership with the Four County Compact in addressing 
these issues and we have now joined with FIU and five other 
Universities in the State to form the Florida Climate Institute, a 
consortium working with state and Federal agencies to address the 
multiple challenges and opportunities facing this State. FAU has been 
proactive in developing tools to evaluate risk and identify adaptation 
strategies to protect local and regional infrastructure and property.
    I illustrate this approach by looking at our recent study of the 
Impact of Sea level Rise on Urban Infrastructure which I have submitted 
as a separate document. Our efforts have included using high resolution 
NOAA data to map topography at the +/-6 inch level, combined that 
topography with mapping of infrastructure and groundwater, to identify 
vulnerable areas throughout Broward, Miami-Dade and Monroe Counties, as 
well as initiated projects in Palm Beach County and other coastal 
regions throughout the state. By identifying vulnerability based on sea 
level changes, the timing and tools for adaptation can be designed and 
funded to insure a ``no-regrets'' strategy that neither accelerates nor 
delays infrastructure beyond its need.
    We have all heard the discussion an addition rise in sea level of 
an estimated two to three feet is anticipated by 2100; some scientists 
think it will be more. But sea level rise is a slow, albeit permanent 
change to our environment. The slow part allows us to make informed 
decisions about adaptation strategies that may prove useful in the long 
term as well as the short term. Of prime importance is the need to plan 
for these needs 50 or more years out so that we do not increase our 
exposure to risk. Keeping development out of low lying areas, 
redeveloping pumping and piping systems with change in mind and 
reserving areas where major efforts will need to be undertaken, is 
important to the public interest and will affect private business, 
tourism and homeowners. Sea level rise is already a problem for many 
low lying areas such as Miami Beach, Fort Lauderdale, Hollywood, and 
other coastal communities. It will be an incremental problem creeping 
up on us for the rest of the century and beyond.
    In Miami Beach, as elsewhere in Florida, the lowest lying areas are 
the roadways, which are also the location of electrical, water, sewer, 
phone and drainage infrastructure. Fortunately given the current 
Federally funded special imagery and NOAA data systems we are able to 
predict pretty accurately where flooding will occur. Linking that 
information with our detailed projections of sea level rise impacts we 
can begin now to map vulnerability and build adaptive measures into 
every action and plan we undertake. Figure 2 shows the issue with 
current, 1, 2 and 3 feet of sea level rise. Looking at a particularly 
vulnerable area, Miami Beach, it is clear that the percentage of land 
that will be impacted on a daily basis will increase with time as sea 
level rises (see Figure 3).
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. Rise of Sea Level in Miamia Beach, 0, 1, 2, 3 ft
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 3. Increase in percent of properties that will flood during 
high tides at some point during the day as Sea Level Rises in Miami 
Beach

    But the impacts are not only on the coast. Sea level affects ground 
water table levels and with our intense rainfall areas far inland can 
be flooded, even subject to long term inundation. Water levels are 
rising and will continue to rise as groundwater rises concurrently with 
sea level. Add the impact summer rains and dealing with water becomes a 
major priority. Figures 4 and 5 outline the roadway network degradation 
at present, 1, 2, and 3 ft of sea level rise. The figures demonstrate 
that a major, underestimated amount of property is vulnerable on the 
western edge of the developed areas because the elevations are 
decreasing as one moves west from I95.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Figure 4. Miami-Dade County for groundwater-adjusted model results.
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 5. Broward County for groundwater-adjusted model results.

    While time will impact our environment, we have three options to 
address the change:

  <bullet> Protect infrastructure from the impacts of climate change

  <bullet> Adapt to the changes, and

  <bullet> In the worst case retreat from the change.

    We do not believe retreat needs to be considered n the short or 
medium term. South Florida has developed in the last 100 years and we 
think there will be well over 100 years of life left. As a result, our 
best option is adaptation. Adaptation takes different forms depending 
on location. For example we can install more coastal salinity 
structures, raise road beds, abandon some local roads, increase storm 
water pumping, add storm water retention etc. to address many of the 
problems. The technology is available today.
    FAU has developed a toolbox of options that can be applied to 
address these adaptation demands, resulting in an approach that will 
need a more managed integrated water system, more operations and 
inevitably more dollars. Much of the actual needs are local, but the 
problem is regional and requires a concerted effort of federal, state 
and local agencies and the private sector to address the scales of the 
problem. A community can address the local problems, but the regional 
canals, barriers, etc., are beyond the scope of individual agencies. 
Collaboration and discussion are needed. The Four County Compact is an 
excellent example, but the longer term solutions need the state and 
Federal agencies and the related dollars to address larger impacts.
    The needs will be large--in the tens of billions. But there are two 
things in south Florida's favor--time and money. The expenditures are 
over many, many years. Most important in the near term need is the 
early planning and identification of critical components of 
infrastructure and policy needs and timing for same. That is what FAU 
does best. At risk are nearly 6 million of Floridians their economy and 
lifestyle, $3.7 trillion in property (2012) in south east Florida alone 
and a $260 billion annual economy. All of these are expected to 
continue to increase assuming the appropriate plans are made to adapt 
to the changing sea level. Protection of the area for the next 100-150 
years is achievable as long as we have the science, the understanding 
and the will to do it. Plan now, and over the rest of this century 
starting now we can raise those billions of dollars needed.

    Senator Nelson. All right. Mr. Talbert?

   STATEMENT OF WILLIAM D. TALBERT III, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, GREATER MIAMI CONVENTION & VISITORS BUREAU

    Mr. Talbert. Thank you very much, Senator. Bill Talbert, 
President and CEO of the Greater Miami Convention and Visitors 
Bureau, the official destination sales and marketing company 
for greater Miami and Miami Beach.
    I would like to ask that you not have me follow Mayor 
Levine next time. He is way too good at what he does. I would 
like to maybe go first, if I could.
    [Laughter.]
    Mr. Talbert. And we are a partner, we have a relationship 
with the City of Miami Beach.
    And I want you to know, Senator, that I, too, like you, was 
born in the state of Florida. My mother served in the Navy in 
Jacksonville during World War II, and I grew up there. And I 
can tell you that living in Jacksonville Beach, we spent most 
of our time in the water, in the surf. Early surfers in 
Jacksonville. I then was honored to graduate from Florida 
Atlantic in Boca with a master's degree. They were very 
tolerant there, so----
    [Laughter.]
    Mr. Bloetscher. Glad to have you.
    Mr. Talbert. Thank you.
    And I have been in this community for 40 years-plus.
    Let me just talk about the numbers. And I am going to give 
you numbers, targeted numbers.
    Travel and tourism is greater Miami and the beaches' number 
one industry. For the past four years, greater Miami and Miami 
Beach has experienced record numbers of visitors. In 2013, a 
record 14.2 million visitors spent one or more nights in 
greater Miami and Miami Beach and spent a record $22.8 billion 
in this community.
    In 2013, for the first time in our history, greater Miami 
was visited by more international visitors than domestic. For 
the past four years and three months, the hospitality sector in 
greater Miami and Miami Beach has added jobs each month--each 
month--a record 114,700 jobs. Seventy-five percent of all of 
those 14.2 million visitors came for a vacation--vacation. 
Greater Miami is blessed with approximately 25 miles of world-
class beaches.
    The Greater Miami Convention and Visitors Bureau collects 
information from independent third parties--collected by 
independent third parties. Approximately 400 interviews are 
conducted each month. Our surveys in 2013 showed the following.
    Forty-five percent of all of our visitors stayed here on 
Miami Beach, largely in hotels--largely in hotels. We asked 
them, what do you like? Now, they have multiple likes. Fifty-
six percent said their most-liked feature was the weather. 
Forty-two percent said their most-liked feature was right where 
we are here, South Beach and Ocean Drive.
    Right, Mary? You like that?
    [Laughter.]
    Mr. Talbert. Thirty-nine, almost 40 percent said their 
most-liked feature was the beaches. And then 32 percent said 
sunbathing.
    During the recent BP oil spill, we learned the importance 
of the global perception of the condition of our beaches. While 
no oil from the BP oil spill made it to greater Miami or Miami 
Beach's beaches, the perception of, ``oil on Florida's 
beaches'' had the potential to negatively affect tourism to 
greater Miami. In fact, because of this potential, BP provided 
us a grant to kind of tell the world that there was no oil on 
our beaches. Remember, 25 miles of beaches. Why are they coming 
for a vacation and beaches a large part of that.
    Greater Miami travel and tourism continues to prosper. 
Greater Miami and Miami Beach have evolved to be a great global 
community. Greater Miami and Miami Beach is now one of the top 
tourist destinations in the world. Great weather, great access, 
international ambiance, heritage neighborhoods, thriving in 
arts and culture, world-class shopping, world-class dining, 
and, of course, pristine beaches.
    We are looking, as a private destination sales and 
marketing company for countywide, Miami Beach, a good--a leader 
as a partner, is to work with the governments, both the City of 
Miami Beach under its new leadership and the County of Dade. 
Harvey Ruvin and I have worked together for a long time. And 
those government partners, we are working directly with them on 
these serious issues.
    And we commend you, Senator, for your leadership on this 
issue. These are serious issues.
    Thank you.
    [The prepared statement of Mr. Talbert follows:]

   Prepared Statement of William D. Talbert III, President and Chief 
     Executive Officer, Greater Miami Convention & Visitors Bureau
Travel and Tourism is Greater Miami's #1 Industry
    For the past four years Greater Miami has experienced record 
numbers of visitors.
    In 2013, a record 14.2 million visitors spent one or more nights in 
Greater Miami and spent a record $22.8 billion dollars in our 
community.
    In 2013, for the first time in our history, Greater Miami was 
visited by more international visitors than domestic. For the past 4 
years and 3 months the hospitality sector in Greater Miami has added 
jobs each month . . . a record 114,700 jobs. 75 percent plus of Greater 
Miami's Overnight Visitors come to the community for a ``vacation.''
    Greater Miami is blessed with approximately 25 miles of world class 
beaches. The Greater Miami Convention and Visitors Bureau [GMCVB] 
collects this information from independent third parties. Approximately 
400 interviews of visitors are conducted each month by GMCVB 
independent contractors. The GMCVB's most recent surveys show the 
following:

  <bullet> 45 percent of the Overnight Visitors stayed on Miami Beach

  <bullet> 56 percent of Overnight Visitors said their ``Most Liked 
        Feature(s)'' of Greater Miami was: Weather (multiple answers 
        permitted)

  <bullet> 42 percent said: South Beach/Ocean Drive

  <bullet> 39 percent said: Beaches

  <bullet> 32 percent said: Sun Bathing

    During the recent BP Oil Spill we learned the importance of the 
global perception of the condition of our beaches. While no oil from 
the BP Oil Spill made it to Greater Miami's beaches the perception of 
`oil on Florida's beaches had the potential to negatively affect 
tourism to Greater Miami. In fact, because of this potential, BP 
provided grant assistance to the GMCVB to deal with this issue. Largely 
because no oil made it to Miami's beaches, there was no negative impact 
from the BP Oil Spill.
    Greater Miami travel and tourism continues to prosper. Greater 
Miami has evolved to become a great global community. Greater Miami is 
now one of the top tourist destinations in the world. Great weather, 
great access, international ambiance, heritage neighborhood, thriving 
arts and culture, world class shopping, world class dining and, of 
course, pristine beaches.

    [Applause.]
    Senator Nelson. So could you sum up your testimony by 
saying, ``No beaches, no bucks''?
    Mr. Talbert. That is correct.
    Senator Nelson. Dr. Linkin, thank you----
    Mr. Talbert. And no jobs.
    Senator Nelson. Indeed.
    Dr. Linkin, I am especially pleased to have you. Your 
industry at large, not your specific reinsurance industry, but 
your industry at large is the grease that allows all of these 
businesses and residences to continue, because you insure them.
    And Swiss Re, a reinsurance company, reinsures against 
catastrophe. So we have a coming catastrophe. Tell us what the 
insurance industry is doing about it.

  STATEMENT OF MEGAN LINKIN, NATURAL HAZARDS EXPERT, SWISS RE

    Ms. Linkin. OK. Thank you, Senator Nelson and to the City 
of Miami Beach, for hosting me today.
    My name is Megan Linkin, and, as the Senator said, I am a 
Natural Hazards Expert for Swiss Re.
    Now, like you, sir, and like Mr. Talbert, I actually grew 
up in a coastal community, as well. I grew up in the North on 
the New Jersey shore, but it was the love of that community and 
the beach that made me enter a career where I could look at 
addressing climate change.
    Swiss Re, we are a global reinsurer. We are headquartered 
in Zurich, Switzerland. Last year, we marked our 150th 
anniversary, and one of the cornerstones of us marking our 
150th anniversary was the very loud message that climate change 
is happening. It is going to increase risk throughout the 
world, especially to those cities and population centers that 
are located on the coast.
    Climate change, as many others have mentioned here already 
this morning, is expected to alter the frequency and severity 
of many extreme weather events, from tropical cyclones to 
floods to droughts and to extreme rainfall events.
    And even currently, without climate change, we are 
vulnerable to extreme weather events due to the globalization 
of the economy and our increasing reliance on technology. We 
saw this vulnerability during Hurricane Sandy in 2012, the 
September 2013 floods in Colorado, and the extreme winter that 
the Northeast and the Central Plains experienced just this past 
year.
    And while we don't know whether these individual weather 
events are attributable to climate change or natural variations 
in the climate system, known as climate variability, we do know 
that these events are in line with the expected impacts of 
climate change in the coming decades.
    It is impossible to attribute any of the insured and 
economic weather-related loss to climate change. We simply at 
this point in time don't have the means to separate the two 
influencers. But what we do know is this: The risk posed by 
coastal flood is indisputably growing due to rising sea levels.
    And this is going to pose a risk to many of our coastal 
communities, and the potential loss in terms of property and 
lives is tremendous. We should never lose sight of the fact 
that over 1,800 people perished during Hurricane Katrina 
because of the storm surge and inadequate preventative measures 
that were put in place.
    Many coastal communities are exposed to sea level rise and 
flood, but few more so than the communities which are located 
in the United States. Coastal and shoreline communities in the 
U.S. account for approximately $6.6 trillion of the United 
States GDP and about 51 million jobs.
    And the risk to coastal communities is going to be not only 
driven by sea level rise but also by the increasing population 
and assets situated in these high-risk areas. As Mr. Talbert 
noted, the weather here is really nice.
    [Laughter.]
    Ms. Linkin. And if the current population trends continue, 
the U.S. coastal population is projected to grow from 123 
million people to nearly 135 million people by 2020.
    Florida provides a good example, as you already mentioned, 
of the risk posed to the U.S. coastline by sea level rise, with 
approximately 8,500 miles of tidal shoreline and over 75 
percent of the state's population residing in coastal counties. 
And the inevitable cost to recover from these coastal and 
inland flood events, especially in major cities, in Miami, are 
going to be significant and much greater than anything we have 
ever experienced before.
    Coastal communities thrive on their proximity to the coast 
and the development of these regions, which create jobs, 
revenue, and enhances the prosperity of the community. However, 
there are perverse incentives at play because of the enormous 
economic incentive to develop high-risk coastal areas, which 
then puts further people and assets at risk.
    And as we have already seen many times, the costs when 
disaster strikes are externalized. The Federal Government and 
then inevitably the taxpayers are expected to foot the bill. We 
must rethink this approach in order to reduce risk and protect 
our communities.
    And, therefore, we must take action today to prepare 
ourselves for the climate of tomorrow. This means controlling 
and mitigating our risk to sea level rise through a variety of 
measures, including building and zoning codes, seawalls, 
reinforcing or relocating key infrastructure, building 
elevation, and other measures.
    It also means integrating climate risk considerations into 
our planning process. For example, if we expect a building or a 
piece of infrastructure to have a lifespan of 60 years, then it 
must be built not only to withstand the climate today but the 
likely climate in the next 60 years.
    Until we start to integrate climate change into these 
processes--for example, including sea level risk projections 
into FEMA flood maps--we will constantly be creating more 
problems for future generations to take care of and potentially 
creating an ever-growing portfolio of stranded assets.
    Insurance is a key component of any holistic risk 
management strategy. Insurance cannot replace what is 
irreplaceable, such as land and lives, but it can provide both 
persons and governments with the financial means to recover and 
rebuild quickly.
    The insurance industry and the reinsurance industry are 
resilient, innovative, and experts in risk evaluation. 
Throughout the years, we have worked alongside the government 
in implementing standards that have reduced economic loss, 
saved lives, and educated the consumer to the true risk faced 
by them. An example of that already is seatbelts that are now 
standard in all motor vehicles.
    Typically, to generate the underwriting and actuarial tools 
that we use to assess risk posed by natural catastrophes, we 
rely on data from the U.S. Government. And this includes 
information from all sources: the USGS, NOAA, the Storm 
Prediction Center, the Hurricane Research Division, and any 
other official sources. Once any information is published by 
these official sources, we can incorporate this into our model. 
And this includes sea level rise changes.
    Presently, I know of no insurance or reinsurance company 
that directly includes the risk of climate change in their 
model. And that is because our product is typically contracted 
on an annual basis, and in that time period the impact of any 
climate changes, including sea level rise, are too small and 
insignificant and without scientific consensus to responsibly 
include in our modeling approach.
    Senator Nelson. But you wouldn't say that over the last 
couple of decades, would you? Would not the fact of sea level 
rise be some part of the calculation of what the insurance 
premium was going to be?
    Ms. Linkin. Correct. And that is why it is so critical that 
we continue to get this reliable and official information from 
these government sources, such as NASA. Because, although we 
don't include it explicitly, we do so every time we update the 
models and the actuarial tools and the pricing tools, because 
we update them with the most up-to-date scientific information, 
the most up-to-date hazard information, and the most up-to-date 
state of the climate so that when we are assessing risk we are 
assessing risk under the climate conditions that we see today, 
not the climate conditions that we saw 50 years ago.
    Senator Nelson. So these policies that look only one to 
three years in the future, is that the reason that the 
insurance industry really hasn't come to the table as a partner 
in this climate change concern?
    Ms. Linkin. Actually, from the perspective of a reinsurer, 
I believe that we have. We have developed a methodology that 
allows us to incorporate climate change information within our 
models and come up with economic loss projections under today's 
climate and under future climate-change scenarios. We refer to 
this methodology as the economics of climate adaptation, and it 
has been successfully deployed globally.
    And one of the areas that it was successfully deployed in 
was South Florida, which, for our definition, was Broward 
County, Miami-Dade County, and Palm Beach. And what we showed 
is that, in spite of a potential annual cost of tropical 
cyclones impacting approximately 10 percent of the local GDP, 
by 2030 over 40 percent of the total expected loss could be 
averted using cost-effective measures, such as beach 
renourishment and vegetation management.
    So we very much acknowledge that this is an issue, and we 
very much want to help our partners, whether or not they are 
Federal Governments, State governments, municipal governments, 
county governments, or primary insurers, understand what their 
risks are today and what kind of risk they will be facing in 
the future.
    Senator Nelson. So you are saying that you do build in an 
incentive for people to start looking at climate change, by 
virtue of what you just said. Is that correct?
    Ms. Linkin. If we are contracted and sanctioned by somebody 
to do so, we can demonstrate to them what sort of resiliency 
measures would be beneficial for them to put in place to offset 
many of their losses that they might experience under a changed 
climate.
    Senator Nelson. If they contact you.
    Ms. Linkin. Yes.
    Senator Nelson. What are you doing proactively, if 
anything, to incentivize folks to get prepared for what is 
going to occur?
    Ms. Linkin. We do it through a lot of outreach. We do it 
through a lot of education. We engage very often with 
governments to make sure that they understand their risk. We 
have deployed tools that our clients have access to, which 
allow them to assess their risk through just simple mapping 
routines.
    So we really help our clients focus on what their risk is 
today, and if they ask, we are more than happy to help them 
focus on what their risks are in the future.
    Senator Nelson. The position of a reinsurance company is to 
insure and spread the risk of catastrophe. The reinsurance 
industry has been critical to Florida in spreading the risk of 
huge loss with regard to hurricanes.
    Does the insurance industry think as a result of climate 
change that we are going to see greater frequency and more 
ferocity of storms as a result of the rising temperature?
    Ms. Linkin. Yes, we agree with the assessments that were 
put forth by the IPCC in the most recent report.
    Senator Nelson. So, ergo, does that mean that the cost of 
insuring against wind damage becomes greater?
    Ms. Linkin. In the future, once we start to see the 
influence and once it is discernable within the hazard, we are 
going to see that have an impact on insurance premiums. If we 
see the current hazard and risk landscape change and the cost 
of losses goes up, then, by definition, the cost of insuring 
that risk will go up.
    Senator Nelson. And you mentioned Hurricane Katrina, that 
it was an event that the real damage was not a Category 3 wind, 
it was the fact that in the counterclockwise winds they raised 
the level of Lake Pontchartrain, it raised the level of the 
water in the canals, the pressure built and breached the canals 
and filled up the bowl of New Orleans.
    Now, if the sea levels rise, what does the experience of 
Katrina tell us for a lot of our infrastructure from the 
insurance companies? standpoint?
    Ms. Linkin. It is going to demonstrate that that 
infrastructure is going to be very vulnerable to damage. There 
could be some assets that become uninsurable, not because we 
are not able to offer insurance--the industry has plenty of 
capacity--but because the premium rates might become high, 
which would lead to consumers not wanting to pay.
    Senator Nelson. I think you have summed it up right there.
    [The prepared statement of Ms. Linkin follows:]

  Prepared Statement of Megan Linkin, Natural Hazards Expert, Swiss Re
    Chairman Rockefeller, Ranking Member Thune, Senator Nelson, and 
other members of the Committee on Commerce, Science, and Transportation 
my name is Megan Linkin and I'm a Natural Hazards Expert for Swiss Re. 
Swiss Re is a global reinsurance company and last year marked our 150th 
anniversary. I thank you for the opportunity to testify in front of the 
Committee regarding the implications of sea level rise and climate 
change. Swiss Re recognizes that climate change will increase risk 
throughout the world, especially to those cities and population centers 
situated along the coast.
    Climate change is expected to alter the frequency and severity of 
many extreme weather events, such as floods, droughts and rainfall. 
Even currently, we are vulnerable to extreme weather events, due to the 
globalization of the economy and increasing reliance on technology. We 
witnessed our vulnerability during Hurricane Sandy, the September 2013 
floods in Colorado and the extreme winter of 2013/14.
    At present, it is difficult to determine whether or not these 
recent, extreme meteorological events are attributable to climate 
change or climate variability. Regardless, these events are in line 
with the expected impacts of climate change in the coming decades. It 
is impossible to attribute any of the insured or economic weather 
related loss to climate change--we simply don't have the means 
currently to discern how much, if any, of the loss was caused by 
climate change.
    What we do know is this: The risk posed by coastal flood is 
indisputably growing, due to rising sea levels. The increasing risk 
that it poses to many of our coastal communities will be tremendous in 
terms of loss of property and potentially a loss in life. We should 
never lose sight of the fact that over 1,800 people perished due to the 
storm surge and inadequate preventative measures in place prior to 
Hurricane Katrina.
    Many countries are highly exposed to sea level rise and flood, few 
more so than the United States. Coastal and shoreline communities 
account for approximately $6.6 trillion to U.S. GDP,\1\ and 51 million 
\2\ jobs. The risk to coastal communities is not only driven by sea 
level rise, but increasing population and assets situated in these high 
risk areas. If current population growth trends continue, the U.S. 
coastal population will grow from 123 million people to nearly 134 
million people by 2020.\3\
---------------------------------------------------------------------------
    \1\ Source: NOAA
    \2\ Source BLS
    \3\ Source: NOAA
---------------------------------------------------------------------------
    Florida provides a good example of the risk posed to the U.S. 
coastline, with over 8,400 miles of tidal shoreline and over 75 percent 
of the state's population residing in coastal counties. The inevitable 
costs to recover from these events, especially in major cities like 
Miami, are going to be significant and much greater than anything that 
we have ever experienced before.
    Coastal communities thrive on their proximity to the coast and the 
development of these regions. Coastal development creates jobs, 
revenue, and enhances the prosperity of the community. However, there 
are perverse incentives at play because of the enormous economic 
incentive to develop high risk coastal areas, which then puts further 
people and assets at risk. As we have seen many times, the costs when 
disaster strikes are externalized; the Federal Government and the 
taxpayers are expected to foot the bill. We must rethink this approach 
in order to reduce the risk and protect our communities.
    Therefore, we must act today to prepare for tomorrow. This means 
controlling and mitigating our risk to sea level rise through a variety 
of measures including building and zoning codes, sea walls, reinforcing 
or relocating key infrastructures, building elevations and other 
measures.
    It also means integrating climate risk considerations into our 
planning processes. For example, if we expect a building to have a life 
span of 60 years then it must to be built to withstand the likely 
climate of 60 years in the future. Until we start to integrate climate 
change into these processes we will be constantly creating more 
problems for future generations to take care of and potentially 
creating an ever growing portfolio of ``stranded assets''. A simple 
example is incorporating sea level risk projections into FEMA flood 
maps.
    Insurance is a key component of any holistic risk management 
strategy. Insurance cannot replace what is irreplaceable, such as land 
and lives, but it can provide both persons and governments with the 
financial means to recover and rebuild quickly. The insurance industry 
is resilient, innovative, and experts in risk evaluation. Throughout 
the years we have worked alongside the government in implementing 
standards that have reduced economic loss, saved lives and educating 
the consumer to the true risks faced by them.
    Typically the hazard component of all natural catastrophe models is 
based on data published by the United States Government. This would 
include current information provided by the United States Geological 
Survey, National Ocean and Atmospheric Administration, the National 
Weather Service's Storm Prediction Center, the Hurricane Research 
Center and other official sources. Once any information published by 
these official sources is published, including sea level changes, we 
incorporate these changes within our models.
    Presently I know of no insurance company or reinsurer that directly 
includes the risk of climate change into their models. Our product, 
insurance, is typically contracted on an annual basis. Within that time 
period the impact of any climate changes including sea level rise are 
too insignificant and without scientific consensus to responsibly 
include in our modeling approach.
    Although we do not directly include climate change within our 
models we may unknowingly be doing so within each catastrophe model 
update that we do. Every couple of years our models are updated to 
reflect the loss history and the scientific findings after the most 
recent events. As such any influence that climate change has on these 
events is implicitly included. Even though there is not direct/explicit 
loading for climate change in our models, we take the issue very 
seriously and conduct research which does specifically take climate 
change factors into consideration.
    The insurance industry, particularly Swiss Re, has pioneered 
studies which investigate the economic loss potential from extreme 
weather events, and savings from the implementation of various 
resiliency measures, in the present and in a new climate regime caused 
by climate change. This methodology, which we refer to as the 
``Economics of Climate Adaptation,'' has been successfully deployed 
globally. South Florida (Broward, Miami-Dade and Palm Beach) is one of 
the locations where the analysis was performed; the results showed that 
in spite of a potential annual cost of tropical cyclones impacts 
costing the equivalent of 10 percent of local GDP by 2030, over 40 
percent of the total expected loss could be averted using cost 
effective measures such as beach nourishment and vegetation 
management.\4\
---------------------------------------------------------------------------
    \4\ Source: Economics of Climate Adaptation main report: http://
media.swissre.com/documents/
rethinking_shaping_climate_resilent_development_en.pdf
---------------------------------------------------------------------------
    If we fail to act we will be faced with the astronomical cost to 
recover from our inaction and we may also see the availability of 
insurance becoming scare at an affordable price. We will always have 
the capacity to insure and reinsure but the impact of a steady gradual 
increase in frequency and severity because of these higher risks could 
lead to higher premiums, which many consumers may not want to pay. 
Without insurance, communities will be slower to recover and many may 
not recover at all.
    We recognize that Florida has been at the forefront of tacking 
action to deal with severe weather impacts no more so in places like 
Broward County. In Broward County officials have recognized the 
increased risk and are acting upon it. We urge the rest of Florida to 
act now in a unified fashion. We support the actions taken by his 
committee and thank you again for asking Swiss Re to testify. I look 
forward to answering any follow-up questions from the Committee.

    Senator Nelson. OK. Do any of the panelists have a question 
for another one of the panelists?
    Ms. Linkin. I have a question, Senator, for either the 
Mayor or the Commissioner.
    In your risk management strategies and adaptation 
strategies to climate change and sea level rise, are you 
considering looking at insurance products to help protect 
against residual risks?
    Because no matter how much you improve pumping systems, 
seawalls, any sort of infrastructure, there is always going to 
be that residual risk component remaining. Is insurance an 
option for financially protecting against that risk?
    Ms. Jacobs. I think one of the important things that 
Broward County is doing, and, in fact, we were able to get it 
into State law and we have been trying to have it adopted on 
the Federal side, and that is what we call adaptation action 
areas, through LIDAR technology, to understand where our 
vulnerabilities are.
    So when we start looking at increased costs of insurance, 
when we look at the dollars that we have or that we are asking 
for from other funders, whether it is the State or the Federal 
Government, that we are putting those dollars into making those 
areas more resilient, including in this language in our land 
development code, so all new projects that get built will have 
to consider climate change into the future based on the 
modeling that the four counties have done. That, in turn, 
affects what we are going to be paying for our insurance.
    So understanding where those vulnerabilities are I think is 
the first step. And understanding how to then prioritize around 
those vulnerabilities to spend our dollars wisely will help us 
stand up to or be more prepared for dealing with increased 
insurance costs.
    There is a lot of discussion about retreat, when do you 
start having to tell people, ``No, don't live in that area.'' 
And I have always said that the insurance is going to help push 
that decision forward. We are not going to have to, I believe, 
as government, go out and say, ``This area has been redlined. 
We are no longer going to address roadway problems or drainage 
problems. We are going to go focus somewhere else.'' I don't 
think we are going to find ourselves in that position. Rather, 
I think we are going to find people choosing to live and move 
somewhere else.
    And a recent example would be a business on Las Olas. We 
have talked about flooding here in the City of Miami Beach, but 
in Fort Lauderdale tidal influences are just as regular there, 
as well. A business owner that I was talking to just a month 
ago was expecting to expand his lease into the space next door 
and grow. After the high tides came in and it flooded his store 
two inches and he saw what happened to the roadway, he said, 
``Well, I am not going to take the lease next door, I am not 
even going to stay here on Las Olas Boulevard, I am going to 
move further inland.''
    And so it is an interesting conversation because where he 
moves inland is going--moving inland isn't just the solution 
because there are 1,800 linear miles of canal systems that 
drain Broward County.
    So understanding where those areas of vulnerability are--
that they are not just associated with the coast--when that 
business makes that decision--and making sure that information 
is available to the public on our webpage--those things will 
help people make the kind of decisions that they need that will 
then make us more resilient and hopefully help our bottom line.
    Senator Nelson. And so are you all going to have to spend 
all kinds of money to help protect Las Olas?
    Ms. Jacobs. The City of Fort Lauderdale--I didn't go into 
this in my notes, but the City of Fort Lauderdale has just come 
out with their projections, and it is in the hundreds of 
millions of dollars to address flooding throughout the streets, 
throughout the City of Fort Lauderdale.
    And you have many cities that are dealing with the same 
issues. And it isn't just those issues, but there are certain 
cities that don't have their own wastewater utility. And so 
what are they going to do when the one that they are drawing 
from, if it is an eastern utility, for example, if they have to 
go to another new system and that system isn't designed for the 
capacity to handle all these new users?
    So the problem that we are going to be experiencing isn't 
just about flooding. It is about the loss of freshwater, where 
you are going to find the money for all of these different 
systems, and how you are going to prioritize them.
    That, I think, is the most important part about what the 
four counties and all the cities underlying us are working 
together on, which is to understand where those priorities are, 
so that when we do want to go after additional dollars, whether 
it is the State or the Federal side, as we did with the City of 
Miami Beach, which is to understand who among us is the most 
vulnerable here and who can we go support.
    That is a different idea for local governments to take, 
because generally it is all for one, you know, and none for the 
others. So it is a different conversation that we are all 
leading ourselves into having to take because of circumstances.
    Senator Nelson. Dr. Bloetscher, do any other infrastructure 
projects come to mind for you that would have to be addressed 
shortly?
    Mr. Bloetscher. I think the biggest ones that we would need 
to start looking at, we need to look at canal structures, those 
structures that we talked about earlier, moving them closer to 
the coast.
    The issue is that if we can pick the ridge and try to put 
the protection mechanisms along there, there is the potential 
then for, you know, if you have 80 or 90 percent of the 
property is actually west of that ridge, you have the 
opportunity to start installing incrementally the 
infrastructure to do that.
    So that would be one. And, of course, that is not 
controlled by any local government. It is controlled by the 
South Florida Water Management District and the Corps of 
Engineers.
    That is kind of this thing where a lot of this stuff will 
occur locally. Each municipality is addressing the areas where 
they see flooding in their community and things like that. But 
there are these regional things that are going to lie outside 
that, and one of those is dealing with canal structures.
    I think there is research that needs to be done on looking 
at the infiltration concept to see how well we can drain roads. 
We know we can drain land, but how well can we pinpoint that 
just to roads.
    And I will echo your comment about water supply is a 
problem. It is already restricted. Going to saltwater really 
isn't the answer because it drives the power costs up. So can 
we come up with a scheme where we can take all this excess 
stormwater--because what I see in the future is, it is not that 
we don't have enough water, which is kind of the mentality we 
have been running on for years dealing with water supply. We 
will have plenty of water. The problem is it is not necessarily 
going to be in the place or in the timing or of the quality 
that we want to do for water supply.
    So there is some effort that needs to be done there. We 
have time to do some of that research and investigation, which 
needs to occur now as opposed to later. Because one of the 
things that we looked at, as we look at adaptation planning for 
communities--and we have done a couple of those, and we have 
done some work here on Miami Beach, as well--we pick 
milestones. So when we get to six inches, what should we have 
done? When we get to a foot, what should we have done?
    And the benefit of that for local officials is that you are 
not putting infrastructure out there and then we don't need it 
for 30 years because, you know, the tide doesn't rise as fast 
as you thought or vice versa. At the same time, you are not 
waiting so long that all of a sudden a crisis is upon you and 
now we have this, ``Oh, we regret that we didn't start this 
earlier.''
    So, from a planning perspective, we need to embellish the 
toolbox quite a bit. And there is a lot of work that needs to 
be done before we say that, you know, the solution for Las Olas 
is X, Y, and Z. We want to make sure those work.
    Senator Nelson. Would you or someone else knit together how 
the addressing of the problems of flooding with the 
infrastructure projects, how can that be helped knit together 
with the billions of dollars that we are spending in the 
restoration of the Everglades and trying to turn the Everglades 
back closer to what Mother Nature intended, instead of a flood-
control project that was started three-quarters of a century 
ago?
    Mr. Bloetscher. Yes, the issue there is all about water 
quality. I mean, the easy thing to do in the western 
communities is pick the stormwater up and put it across the 
dike into the Everglades. But you have a huge phosphorus and 
nitrogen-type problem. So the Corps and the Water Management 
District have been working on trying to find some, you know, 
STAs to try to treat that.
    I think you are going to see more of that, but there is 
research that needs to be done, because one of the questions 
is, where does that water need to go? And we can put a lot of 
water right across the dike, but the problem is, with the 
porous limestone, it is going to come right back on you. So you 
haven't really solved the problem; you are just pumping water 
in a circle. So how do we get it into the right place?
    And let me make a note about the Everglades too. As sea 
level rises, you know, the low area in Shark Valley of the 
Everglades is at, like, four feet on I-75, Alligator Alley, and 
it gets lower as you go. Well, you are going to see saltwater 
climbing up that, which then potentially threatens wellfields. 
The southern end of the Everglades will become a very large 
saltwater swamp at some point. And the only way to really 
counterbalance that is to figure out a way to get more water 
into the Everglades to raise the head, which will alter the 
ecosystem out there fairly significantly.
    Inches matter. And when we start adding many more inches of 
water, however we do that, it will have a fairly significant 
change. And there are some Federal policies that would need to 
be evaluated in that. Because the idea is, ``Don't change 
Mother Nature,'' but----
    Senator Nelson. Can you think of--and I will get to some of 
the other panelists. Can you think of any other communities or 
areas of the globe that have handled this problem, that are 
trying to meet a solution to this problem, that we could learn 
from?
    Mr. Bloetscher. New Orleans a little bit, but different 
lessons, perhaps, because that is kind of a low-lying area. In 
Florida, ultimately, if you use, you know, the railroad 
corridor as your breakpoint, it is kind of a natural dike that 
exists there, and you do have all this lower land to the west. 
So there are some things to learn there.
    There absolutely are some things to learn from the Dutch. 
There absolutely are some things to learn from the Italians in 
Venice. There are some other areas that are going to have to 
deal with this, so it will be interesting to see what the folks 
do in Bangladesh. They have way more people exposed to low-
lying land than we do.
    So I think there are some good examples out there to learn 
from. And we have actually been in contact--last fall, we had a 
discussion with the Dutch. We are involved in a process that 
the city put on.
    Senator Nelson. Dr. Sellers, I would like to expand the 
scope here and ask you--we have clearly identified the problem. 
We have looked locally at some of the manifestations of the 
problem. And we have talked about some of the things that we 
can do in the short term.
    Are mitigation efforts like improving energy efficiency and 
reducing our reliance on fossil fuels, is that worthwhile? Does 
that have an effect here?
    Mr. Sellers. I think all the IPCC projections show with 
pretty good confidence that the climate change we are going to 
get directly scales to the amount of fossil fuel we burn. It is 
almost a straight line in terms of temperature increase versus 
amount of fossil fuel burned.
    So it is going to be an intricate and difficult business of 
trying to reduce our fossil fuel use while maintaining our 
economies, but, ultimately, it is going to be something that I 
think we are going to have to manage as a species.
    Senator Nelson. Would you describe for the record of our 
committee the greenhouse effect?
    Mr. Sellers. The greenhouse effect is where you have some 
gases like carbon dioxide or methane in the atmosphere that 
allow the sunlight to come through. They are transparent, if 
you like, to sunlight. But to the heat that is trying to get 
off the surface, in terms of infrared radiation--that is the 
heat you can feel from a fire or something--it acts like a 
blanket. It traps that energy in the atmosphere. And some of 
that energy gets redirected back to the surface--that extra 
energy.
    And that is the greenhouse effect. It is just like being 
inside a regular greenhouse.
    Senator Nelson. And so the temperature of the Earth rises.
    Mr. Sellers. That is correct. If the energy coming in 
doesn't match the energy going out and there is an imbalance, 
the energy has to go somewhere, and it is used to heat up the 
Earth.
    As I said earlier, most of it goes into heating up the 
oceans, and that is what we have seen over the last century or 
so. Ninety percent of the energy has gone to heat up the 
oceans, and about seven percent has been used to melt ice. And 
that is the interesting business for sea level rise. It is the 
change in the ice sheets that is going to have, we expect, a 
big impact on sea level rise over the next century.
    Senator Nelson. And most of that CO<INF>2</INF> [carbon 
dioxide] is in fact as a result of--most of the energy being 
developed is coming from--fossil fuels.
    Mr. Sellers. Most of it is from fossil-fuel burning. There 
is a significant contribution from cement production, as well. 
So it is human activity.
    Senator Nelson. I won't ask you the question, what we are 
going to do to get other countries--particularly China comes to 
mind. But recently one of our fellow senators was nominated and 
confirmed to be the present Ambassador to China, and I told him 
that my present to him, my going-away present to Senator Baucus 
was going to be a surgical mask for him to wear in Beijing. And 
that is not a joke, unfortunately.
    So maybe it is going to take that for other people to start 
to realize that other countries have got to get with this.
    And, of course, anybody want to comment on these 
international organizations, like there is one called the IPCC, 
that is trying to grapple around that?
    Dr. Sellers?
    Mr. Sellers. I would just make one comment, that I think 
the scientific community has taken the stance that it is our 
job to produce the very best information for everybody. The 
information is not just what we see, but it is what our models, 
which are based on very sound physics--it is what our models 
think is likely to happen.
    So we are here to provide the information. Trying to figure 
out the best way to thread the world's economy through the 
rapids ahead of us is a job for the public and policymakers.
    Ms. Jacobs. And, Senator, if I could, in response to your 
question, I think it is super-important that the United States 
of America becomes a real leader. If we want to talk about what 
other countries ought to be doing, we ought to be talking about 
what we do here first. Until this country gets serious about 
funding alternative energy sources----
    [Applause.]
    Ms. Jacobs. You know, you do what you can. We can't really 
change what other countries are doing, but we sure can be 
responsible for our own.
    So looking at alternative energy funding, we look at what 
we are doing within our own policymaking within our cities and 
counties. And we know that each of us, even in our own homes, 
can make significant changes.
    And I would point to a tiny little statistic, but when you 
look across the country, what it could change. The amount of 
fuel that is being used to mow lawns, trim hedges, all of that, 
you could run a weed whacker or a lawnmower in your yard for 
one hour and produce the same particulates that you could if 
you got in your car, drove to Flagstaff, Arizona, and back, 
from Fort Lauderdale, back again.
    So when we talk about all the different ways in which we 
are contributing, there are a lot of ways in which we can make 
changes. In Broward County, we set up a system called 
NatureScape Broward, which takes an example of what you could 
do in your own yard, school, or business. And the idea was, 
wherever you might stand in the County, there would be another 
certified property within a quarter-mile of that place. Today, 
we have well over 3,000 certified properties that have taken 
this idea of sustainability and husbandry and attached it to 
what we are doing individually.
    So it starts individually. It really needs to go to the 
next level, which is broader than just our states, but to the 
funding that is coming out of the Federal Government.
    Senator Nelson. All of you have been spectacular, and the 
record is pretty complete with what you have testified. There 
is one thing more that I want to get on the record.
    Dr. Sellers, we have been facing budget cuts at NASA, which 
means that we may not be able to continue to get some of these 
satellites that provide the data for the measurements that you 
have shown. As a matter of fact, we have a gap up until 2017.
    [A cell phone rings, playing music]
    Senator Nelson. That is very good dance music.
    We have a gap. Would you explain for the record, please, 
what the gap is and what some kind of budget cutting that would 
prohibit future satellites on these measurements would do to 
our ability to understand what is happening to our planet?
    Mr. Sellers. Well, thanks for the opportunity.
    First of all, it is really important to understand that 
when you are studying something like climate, where you are 
looking at a lot of natural variability, no two years are 
alike. You have to keep an eye on the system. You need a 
continuous set of mutually reinforcing measurements, and you 
have to keep them going. And this requires a significant 
investment across a portfolio of satellite instruments, not 
just one.
    So, for example, we were talking earlier about, we have two 
ways of keeping track of the ice masses on the planet. One is 
using lasers from space that measure the altitude of ice 
sticking up off the surface. And the other is a gravity 
measurement system that is beautifully complicated, but the way 
it works is it actually weighs the amount of ice sitting on top 
of Greenland and Antarctica.
    So we want to keep these continuous measurements going 
because you can see it is very important to track rates of 
change and how much these contribute to sea level rise. So I 
would say it is vitally important that we sustain investments 
in the whole portfolio.
    Mr. Bloetscher. Do you mind if I add----
    Senator Nelson. Doctor?
    Mr. Bloetscher.--one thing to that?
    I completely agree, being able to get satellite imagery is 
really important. It is what we rely on to do a bunch of our 
work. But I don't think we want to neglect, we have an entire 
system that USGS and NOAA monitor on the ground what is 
actually happening--water gauges, groundwater, and things like 
that. That is equally as important, because what happens is 
those two things go together.
    And I know the budget cut issue has hit USGS, NASA, and all 
those agencies, but those monitoring programs that have been 
funded at the Federal level are critical to being able to get a 
good handle on all of these climate issues, not just in Florida 
but nationally and around the world.
    Mr. Sellers. I would agree that the combination of 
satellite and surface measurements is crucial. You can't really 
get far without both of these.
    Senator Nelson. Does our excellent staff have any questions 
that you would ask?
    Well, I want to thank everybody for participating. And I 
want to thank the panel. You are obviously experts at what you 
have testified. And for the record, as a Committee of the U.S. 
Senate, we are most appreciative.
    I am going to call this to the attention of several of our 
Senators that have formed a task force on climate change. And 
these are some Senators that happen to be members of the 
Commerce Committee, others are not.
    I am also going to call it to the attention of some of my 
friends in the Senate that believe that there is no data that 
is showing climate change. And I hope that we can continue to 
keep this discussion going so that we can come to some 
reasonable conclusions of what we need to continue to do before 
it is too late.
    Five hundred years ago, Ponce de Leon discovered La 
Florida. And it was this bountiful land that he called 
``Florida'' because it was Pascua de Flores at the time that he 
arrived. And then, over the years, we have had the changes that 
you all have chronicled.
    And so I am very, very grateful to you for your testimony.
    And the meeting is adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]

                                  [all]

                  This page intentionally left blank.
                 
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
